<html>
<title> - CHIMPANZEE HEALTH IMPROVEMENT, MAINTENANCE AND PROTECTION ACT</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
     CHIMPANZEE HEALTH IMPROVEMENT, MAINTENANCE AND PROTECTION ACT

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                         HEALTH AND ENVIRONMENT

                                 of the

                         COMMITTEE ON COMMERCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                                   on

                               H.R. 3514

                               __________

                              MAY 18, 2000

                               __________

                           Serial No. 106-109

                               __________

            Printed for the use of the Committee on Commerce



                    ------------------------------  

                         COMMITTEE ON COMMERCE

                     TOM BLILEY, Virginia, Chairman

W.J. ``BILLY'' TAUZIN, Louisiana     JOHN D. DINGELL, Michigan
MICHAEL G. OXLEY, Ohio               HENRY A. WAXMAN, California
MICHAEL BILIRAKIS, Florida           EDWARD J. MARKEY, Massachusetts
JOE BARTON, Texas                    RALPH M. HALL, Texas
FRED UPTON, Michigan                 RICK BOUCHER, Virginia
CLIFF STEARNS, Florida               EDOLPHUS TOWNS, New York
PAUL E. GILLMOR, Ohio                FRANK PALLONE, Jr., New Jersey
  Vice Chairman                      SHERROD BROWN, Ohio
JAMES C. GREENWOOD, Pennsylvania     BART GORDON, Tennessee
CHRISTOPHER COX, California          PETER DEUTSCH, Florida
NATHAN DEAL, Georgia                 BOBBY L. RUSH, Illinois
STEVE LARGENT, Oklahoma              ANNA G. ESHOO, California
RICHARD BURR, North Carolina         RON KLINK, Pennsylvania
BRIAN P. BILBRAY, California         BART STUPAK, Michigan
ED WHITFIELD, Kentucky               ELIOT L. ENGEL, New York
GREG GANSKE, Iowa                    TOM SAWYER, Ohio
CHARLIE NORWOOD, Georgia             ALBERT R. WYNN, Maryland
TOM A. COBURN, Oklahoma              GENE GREEN, Texas
RICK LAZIO, New York                 KAREN McCARTHY, Missouri
BARBARA CUBIN, Wyoming               TED STRICKLAND, Ohio
JAMES E. ROGAN, California           DIANA DeGETTE, Colorado
JOHN SHIMKUS, Illinois               THOMAS M. BARRETT, Wisconsin
HEATHER WILSON, New Mexico           BILL LUTHER, Minnesota
JOHN B. SHADEGG, Arizona             LOIS CAPPS, California
CHARLES W. ``CHIP'' PICKERING, 
Mississippi
VITO FOSSELLA, New York
ROY BLUNT, Missouri
ED BRYANT, Tennessee
ROBERT L. EHRLICH, Jr., Maryland

                   James E. Derderian, Chief of Staff

                   James D. Barnette, General Counsel

      Reid P.F. Stuntz, Minority Staff Director and Chief Counsel

                                 ______

                 Subcommittee on Health and Environment

                  MICHAEL BILIRAKIS, Florida, Chairman

FRED UPTON, Michigan                 SHERROD BROWN, Ohio
CLIFF STEARNS, Florida               HENRY A. WAXMAN, California
JAMES C. GREENWOOD, Pennsylvania     FRANK PALLONE, Jr., New Jersey
NATHAN DEAL, Georgia                 PETER DEUTSCH, Florida
RICHARD BURR, North Carolina         BART STUPAK, Michigan
BRIAN P. BILBRAY, California         GENE GREEN, Texas
ED WHITFIELD, Kentucky               TED STRICKLAND, Ohio
GREG GANSKE, Iowa                    DIANA DeGETTE, Colorado
CHARLIE NORWOOD, Georgia             THOMAS M. BARRETT, Wisconsin
TOM A. COBURN, Oklahoma              LOIS CAPPS, California
  Vice Chairman                      RALPH M. HALL, Texas
RICK LAZIO, New York                 EDOLPHUS TOWNS, New York
BARBARA CUBIN, Wyoming               ANNA G. ESHOO, California
JOHN B. SHADEGG, Arizona             JOHN D. DINGELL, Michigan,
CHARLES W. ``CHIP'' PICKERING,         (Ex Officio)
Mississippi
ED BRYANT, Tennessee
TOM BLILEY, Virginia,
  (Ex Officio)

                                  (ii)


                            C O N T E N T S

                               __________
                                                                   Page

Testimony of:
Material submitted for the record by:
    Goodall, Jane, Ph.D. CBE, Director of Science and Research, 
      the Jane Goodall Institute.................................     1
    Nelson, Tina, Executive Director of the American 
      Antivivisection Society....................................    33
    Prince, Alfred M., Head of Virology, Lindsley F. Kimball 
      Research Institute, New York Blood Center..................    31
    Strandberg, John, Director of Comparative Medicine, National 
      Center for Research Resources, National Institutes of 
      Health.....................................................    17

                                 (iii)

  


     CHIMPANZEE HEALTH IMPROVEMENT, MAINTENANCE AND PROTECTION ACT

                              ----------                              


                         THURSDAY, MAY 18, 2000

                  House of Representatives,
                             Committee on Commerce,
                    Subcommittee on Health and Environment,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 11:48 a.m., in 
room 2322, Rayburn House Office Building, Hon. Michael 
Bilirakis (chairman) presiding.
    Members present: Representatives Bilirakis, Greenwood, 
Bryant, Brown, and Green.
    Staff present: Jason Lee, majority counsel; Kristi Gillis, 
legislative clerk; and John Ford, minority counsel.
    Mr. Bilirakis. This hearing will come to order. First, I 
want to apologize and at least explain the reason why this 
hearing is starting almost 50 minutes later than originally 
scheduled. That is because we have had a series of votes on the 
floor. Additionally, members are waiving their opening 
statement to allow Dr. Goodall to testify, since it is so very 
important we hear her testimony. Obviously, we will have a 
series of votes taking place all day long. It is going to be 
one of those days, I am afraid.
    Dr. Goodall, we so very much appreciate your taking time to 
be here today. Jane Goodall, Ph.D., is the director of science 
and research at the Jane Goodall Institute located here in 
Silver Spring, Maryland. Please proceed.
    Mr. Brown. Mr. Chairman, could I have 5 seconds.
    Mr. Bilirakis. By all means.
    Mr. Brown. Dr. Goodall, when I was a college student 25 
years ago, I heard you come to our campus to speak and I have 
admired and followed you and been thrilled with the work you've 
done ever since.
    Ms. Goodall. Thank you.
    Mr. Bilirakis. Please proceed, Dr. Goodall.

 STATEMENT OF JANE GOODALL, PH.D. CBE, DIRECTOR OF SCIENCE AND 
              RESEARCH, THE JANE GOODALL INSTITUTE

    Ms. Goodall. When I began my research in Tanzania's Gombe 
Stream National Park 40 years ago, scientific attitudes and 
public perceptions toward chimpanzees were very different than 
those of today. Then I was criticizeed for giving them names. I 
should have given them numbers, talking about their 
personalities and ascribing to them intellectual abilities----
    Mr. Bilirakis. Please pull that closer, if you would, 
Doctor, so we can all hear you better.
    Ms. Goodall. I was criticized for giving them names rather 
than numbers, describing their vivid personalities and 
ascribing to them intellectual abilities and emotional 
expressions that were then considered unique to human beings. 
Today, however, their biological and behaviorable similarities 
to humans, their closest living primate relatives, are widely 
accepted. Unfortunately, the biological similarities, the less 
than 2 percent difference in the structure of DNA and the 
striking similarities in the structure of immune systems, 
similarities in blood and anatomy of brain and central nervous 
system, mean that hundreds of our closest living relatives in 
the animal kingdom are imprisoned in medical research 
laboratories.
    Mr. Bilirakis. Forgive me, Doctor. Can the audience hear 
the doctor well enough? Please pull that mike a little closer.
    Ms. Goodall. I'm sorry. My voice isn't good today.
    Mr. Bilirakis. For better reason, I guess to have the mike 
a little closer, if you would.
    Ms. Goodall. Can you hear?
    Perhaps it wasn't on. Is that better? Yes. It wasn't on, 
was it? Never mind. You didn't miss too much.
    Mr. Bilirakis. You are welcome to start all over if you 
would like.
    Ms. Goodall. Basically what I was saying was that since I 
began my study in 1960 at the Gombe National Park, attitudes 
toward chimpanzees have changed rather dramatically, and that 
when I first began, I was criticized for giving the chimps 
names and talking about their minds and ascribing to them 
emotions like happiness, sadness and fear because those were 
supposed to be unique to humans, but today attitudes have 
changed quite considerably and unfortunately, some of the 
biological similarities between humans and chimps like the 
closeness of the structure of DNA where they differ from us by 
only just over 1 percent, and the anatomy of brain and central 
nervous system and the structure of blood and immune system 
means that they are widely used for medical research, so that 
there they are, our closest living relatives, imprisoned in 
very often small cages while we try to find out more about the 
nature and cures for human disease.
    The plight of the chimps in medical research is of 
increasing concern to very large numbers of people throughout 
the world, as a matter of fact. Now for the first time, the 
medical research community has recognized that a cost effective 
and humane system is needed for the long-term care of 
chimpanzees. This is demonstrated by the growing list of 
scientists who have given their support to the permanent 
retirement system of Congressman Greenwood proposed in H.R. 
3514.
    Many supporters of this legislation currently work for or 
run facilities that use chimps in biomedical research that is 
funded by the National Institutes of Health. These researchers 
have begun to realize that it is fundamentally wrong to cage 
these amazing animals alone in tiny cramped cells for the 
remainder of their long lives, and they can live to be over 60 
years. Yet as Thomas Insel, M.D., former director of Yerkes 
Regional Primate Center said in a New York Times interview, 
until there are those kind of resources such as would be 
provided by this bill, there are going to be chimpanzees in 
facilities like ours where chimpanzees are basically being 
warehoused. A humane responsible alternative is to place the 
chimps in a sanctuary, or sanctuaries. Sanctuary accommodations 
would be a much cheaper alternative to warehousing chimpanzees 
in the back of research facilities as well as being more 
humane.
    The surplus problem began in the 1980's and 1990's when the 
NIH initiated a breeding program that was very productive, but 
the combination of an increase in chimpanzees and less 
extensive research use that had been anticipated created a 
surplus of chimps and a substantial management problem. To 
address the management problem, in 1994, NIH asked the National 
Academy of Sciences National Research Council to study 
alternatives for management of federally funded research 
chimpanzees.
    In 1997, the National Research Council presented its report 
chimpanzees in research, strategies for their ethical care, 
management, and use to NIH and to the public. The NRC report, 
which I have submitted with my written testimony for the 
record, determines that there are surplus chimps who will, for 
specific scientific reasons, never be able to be used in 
research again. It concludes that these surplus chimpanzees 
could go to a sanctuary similar to the one proposed in the 
chimp pack. This would be the cheapest and most appropriate way 
to care for surplus chimpanzees. This legislation is the only 
humane hope for chimpanzees that will never be used in research 
again because of the procedures to which they have already been 
subjected.
    Instead of expending research dollars to warehouse chimps 
sometimes for decades, retiring chimpanzees to a sanctuary will 
be a humane alternative and it will free financial resources 
that can be better used to find cures for human ailments.
    How can we, as a supposedly enlightened and intelligent 
people, disregard all we know about chimps as our closest 
relatives and continue to subject them to cruel standards of 
research and inhumane lifetime confinement. If we choose to 
ignore their emotions, intelligence and culture, shouldn't we 
at least give them a chance to live in peace after giving their 
lives in the quest for human life?
    We are at a crossroads in our relationship with chimps. We 
have the opportunity to make a major difference in the lives of 
many chimpanzees to do something now when we realize there is a 
need and are presented with a solution. In conclusion, Mr. 
Chairman, and distinguished members of the committee, I wish to 
remind you and other Members of Congress that this legislation 
and hearing are not about the future of biomedical research 
using chimpanzees or the animals used in any research. This 
legislation is about doing what is right, retiring chimpanzees 
that are being forced into servitude by us.
    The bill does not arbitrarily pull chimpanzees out of 
research. Quite the contrary. It enables creation of a more 
appropriate place for them to live when the scientists have 
determined that they are no longer useful for research. The 
legislation allows for the creation of sanctuaries which will 
provide socially, mentally, and physically enriching 
environments in which chimpanzees can live out their lives. 
These chimpanzees can never return to the wild, but free from 
small cages, they can live in a way that will allow them to 
socialize to groom each other, to feel breeze in their face, to 
climb trees. That is surely the least we can do for them in 
return for their sacrifice.
    You are going to hear from NIH about their concern about 
monitoring the chimps in the sanctuaries. This bill does permit 
that and I am confident that Congress and this administration 
will be able to sort out any problems of this sort.
    I urge you to pass Congressman Greenwood's bill, H.R. 3514, 
as quickly as possible. Every day counts for the imprisoned 
chimpanzees. This bill represents the ethically and fiscally 
right course of action. Thank you.
    [The prepared statement of Jane Goodall follows:]
  Prepared Statement of Jane Goodall, The Jane Goodall Institute, U.S.
    Thank you Mr. Chairman and members of the Committee for the 
opportunity to speak before you on this legislation. I have long hoped 
the U.S. government would take appropriate steps to provide long-term 
care for chimpanzees in biomedical research and ensure the well-being 
of these animals who have given so much to help humans. I urge you to 
pass H.R. 3514 without delay--every day counts and this bill represents 
the morally, ethically and fiscally right course of action. Congressman 
Greenwood has presented us with an extraordinary opportunity for the 
peaceful, permanent retirement from further experimentation of hundreds 
of these very special beings who are so close to my heart.
    When I began my research in Tanzania's Gombe Stream National Park, 
40 years ago in 1960, scientific attitudes and public perceptions 
towards chimpanzees were very different than those of today. Then, I 
was criticized for giving them names (rather than numbers), describing 
their vivid personalities, and ascribing to them intellectual abilities 
and emotional expressions considered unique to human beings. Today, 
however, their biological and behavioral similarities to humans (their 
closest living primate relatives) are widely accepted. Unfortunately, 
the biological similarities--the less than 2% difference in the 
structure of DNA and the striking similarities in the structure of 
immune systems, similarities in blood and in anatomy of brain and 
central nervous system--mean that hundreds of our closest living 
relatives in the animal kingdom are imprisoned in medical research 
laboratories, used to investigate a variety of human diseases.
    The plight of chimpanzees used in medical research is of great 
concern to countless numbers of people across the United States and 
around the world. Indeed, a number of scientists have expressed concern 
as to the validity of using chimpanzees living in highly stressful 
situations as models for investigating human diseases since stress is 
known to affect the immune system and this, in turn, may invalidate 
certain medical tests. Thus it is of great importance to search for and 
encourage alternatives to the use of chimpanzees in laboratory testing 
for scientific as well as humane reasons.
    What of these chimpanzees that end up in medical research 
laboratories, some 2,000 chimps imprisoned in labs worldwide--about 
1,500 of them in the United States alone? Visiting the labs and looking 
into the bewildered, or sad, or angry eyes of the prisoners in their 
cages, is the worst kind of nightmare. Animal researchers, to make it 
easier for them to do what they feel they must do, often ignore or even 
deny the psychological needs of their subjects--needs which are so like 
ours. The trouble is that many lab chimps have learned to distrust and 
even hate humans; they await the opportunity to spit, to throw feces, 
to bite. We cannot blame them. But it means that those who work in the 
labs cannot imagine the dignity, the magnificence, of free-living 
chimpanzees. So how do we open blinded eyes, bring feeling to frozen 
hearts? Perhaps with stories, stories about the chimpanzee in the wild, 
the fascination of their lives in the forest.
    If we succeed, if scientists start to see into the minds of the 
animals for whose plight they are to some extent responsible, they can 
no longer be at peace. For once we accept or even suspect that humans 
are not the only beings with personalities, not the only beings capable 
of rational thought and problem-solving, not the only beings to 
experience joy and sadness and despair, and above all not the only 
beings to know mental as well as physical suffering, we become less 
arrogant, a little less sure that we have the inalienable right to make 
use of other life forms in any way we please so long as there is a 
possible benefit for us. We humans are, of course, unique, but we are 
not so different from the rest of the animal kingdom as we used to 
suppose: the line between humans and other animals, once perceived as 
sharp, is blurred. And this leads to a new humility, a new respect.
    JoJo was the first adult male I met when I visited the former chimp 
colony at LEMSIP (the laboratory for Experimental Medicine and Surgery 
in Primates, located at New York University). ``He's gentle,'' said the 
veterinarian, Jim Mahoney, ``he won't hurt you.'' I knelt and reached 
through the thick, cold steel bars of his prison cell with my gloved 
hand. I thought of David Greybeard, the first wild chimpanzee to lose 
his fear and allow me into his world. JoJo had a similar face, and 
white hairs on his chin. As I looked into his eyes, I saw no anger, 
only puzzlement, and gratitude that I had stopped to speak to him, to 
break the terrible gray monotony of the day. And I felt deep shame, 
shame that we, with our more sophisticated intellect, with our greater 
capacity for understanding and compassion, had deprived JoJo of almost 
everything. Not for him the soft colors of the forest, the dim greens 
and browns entwined. Nor the peace of the afternoon when the sun 
filters through the canopy and small creatures rustle and flit and 
creep among the leaves. Not for him the freedom to choose, each day, 
how he would spend his time, and where and with whom. Instead of 
nature's sounds of running water, of wind in the branches, of 
chimpanzee calls ringing through the forest, JoJo knew only the loud, 
horrible sounds of clanging bars and banging doors, and the deafening 
volume of chimpanzee calls in underground rooms. In the lab, the world 
was concrete and steel--no soft forest floor, no springy leafy branches 
for making beds at night. There were no windows, nothing to look at, 
nothing to play with. JoJo had been torn from his forest world as an 
infant, torn from his family and friends and, innocent of crime, locked 
into solitary confinement. No wonder I had a strong sense of guilt, the 
guilt of my species. Needing forgiveness, I looked into JoJo's clear 
eyes. And he reached out a large gentle finger and touched the tear 
that trickled down into my mask.
    How should we relate to beings who look into mirrors and see 
themselves as individuals, who mourn companions and may die of grief, 
who have consciousness of ``self''? Don't they deserve to be treated 
with the same sort of consideration we accord to other highly 
sensitive, conscious beings--ourselves? For ethical reasons, we no 
longer perform certain experiments on humans; I suggest that in good 
conscience the least we could do is afford the chimpanzees we have 
already used a peaceable life.
    Now, for the first time, the medical research community has 
recognized that a cost-effective and humane system is needed for the 
long term care of chimpanzees confined in laboratory cages. This is 
demonstrated by the growing list of scientists who have given their 
support to the permanent retirement system proposed in H.R. 3514.
    Many supporters of this legislation currently work for or run 
facilities that use chimpanzees in biomedical research funded by the 
National Institutes of Health. These researchers have begun to realize 
that it is fundamentally wrong to cage these amazing animals alone in 
tiny cramped cells for the remainder of their long lives (they can live 
to be 60 years old). Yet, as Thomas Insel, MD, former Director of the 
Yerkes Regional Primate Center said in a New York Times interview, 
``Until there are those kinds of resources [H.R. 3514], there are going 
to be chimpanzees in facilities like ours where chimpanzees are 
basically being warehoused.'' A humane, responsible alternative is to 
place the chimps in a sanctuary. Sanctuary accommodations would be a 
much cheaper alternative than warehousing chimpanzees in the back of 
research facilities.
    The surplus problem began in the 80's and 90's when the National 
Institutes of Health initiated, according to minutes on Dr. Ray 
O'Neill's presentation to at January 2000 National Advisory Research 
Resources Council meeting, a ``breeding program that was very 
productive, but the combination of an increase in chimpanzees and less 
extensive research use than expected, created a surplus of chimpanzees, 
and a substantial management problem.'' To address the management 
problem, in 1994, NIH asked the National Academy of Science's National 
Research Council to study alternatives for management of federally 
funded research chimpanzees. In 1997, the National Research Council 
presented its report Chimpanzees in Research: Strategies for their 
Ethical Care, Management and Use to NIH and the public. The NRC Report, 
which I have submitted with my written testimony for the record, 
determines that there are ``surplus chimpanzees'' who will, for 
specific scientific reasons, never be able to be used in research 
again. It concludes that these surplus chimpanzees, already retirement 
ready, could go to a sanctuary, similar to the one proposed in the 
CHIMP Act. This would be the cheapest and most appropriate route to 
care for surplus chimpanzees.
    This legislation is the only humane hope for chimpanzees that will 
never be used in research again because of the procedures to which they 
have already been subjected. Instead of expending research dollars to 
warehouse chimpanzees, sometimes for decades, retiring chimpanzees to a 
sanctuary will be a humane alternative that also frees financial 
resources that can better be used to find cures for human ailments.
    How can we, as a supposedly enlightened, intelligent people, 
disregard all we know about chimpanzees and continue to subject them to 
the cruel standards of research and inhumane lifetime confinement? If 
we choose to ignore their emotions, intelligence, culture and relation 
to humans, shouldn't we at least give them a chance to live in peace 
after giving their lives in the quest for human advancement? We are at 
a crossroads in our relationship with chimpanzees. We have the 
opportunity to make a major difference in many chimpanzee lives; to do 
something now when we realize there is a need, and are presented with a 
solution.
    In conclusion, Mr. Chairman and distinguished members of the 
Committee I wish to remind you and other members Congress that this 
legislation and hearing are NOT about the future of biomedical research 
or the animals used in any research. This legislation is about doing 
what is right: retiring chimpanzees that have been forced into 
servitude to us. The bill does not arbitrarily pull chimps out of 
research. Quite the contrary, it enables creation of a more appropriate 
place for them to live when the scientists have determined that they 
are no longer useful for research. The legislation allows for the 
creation of sanctuaries which will provide socially, mentally, and 
physically enriching environments in which chimpanzees can live out 
their lives.
    These chimps can never return to the wild, but free from cages they 
can live in a way that will allow them to socialize, feel the breeze in 
their faces, climb trees, and groom with their friends. That is, 
surely, the least we can do for them, in return for their sacrifice.
    Thank you.

    Mr. Bilirakis. Thank you so much, Doctor.
    Obviously, your written statement is a part of the record. 
I guess I will start off the questioning very briefly, very 
quickly. I understand you are going to have to leave. We will 
try to expedite this.
    Dr. Goodall, you made a comment in your statement that 
these chimpanzees cannot be returned to the wild. Why is that? 
Is that because of the domestication of them over this period 
of time--can you explain that to me?
    Ms. Goodall. It is a whole variety of reasons, but 
basically, it is almost impossible to return chimpanzees to the 
wild, even in Africa we are struggling with caring for orphan 
chimps whose mothers have been shot. There isn't in most places 
enough wild forest for the wild chimpanzees, let alone trying 
to introduce more, and wild chimpanzees are very aggressively 
territorial. They would probably attack and maybe kill any 
chimpanzees that we might try to introduce into the wild. Also 
these chimps are familiar with people and they'd wander into a 
village and either hurt someone or be hurt themselves. There is 
also the disease factor. If they are infected, then it would be 
entirely inappropriate to even try.
    Mr. Bilirakis. How long do they typically live in 
captivity?
    Ms. Goodall. There are a number that have lived to be 60 
and more.
    Mr. Bilirakis. You referred, of course, to the sanctuaries 
which are part of the Greenwood legislation. How, in your 
opinion, should they be structured?
    Ms. Goodall. They should be structured probably slightly 
different for slightly different chimpanzees because some have 
been in captivity for so long it is very hard to resocialize 
them in a large group. They might always have to be just in 
pairs or threes. Others, especially the younger ones, can be 
introduced into much larger groups so they would have places to 
sleep at night. It would be rather like a big zoo, really, a 
safari park zoo. They would have places to go, things to climb, 
a very enriched environment.
    Mr. Bilirakis. Doctor, I am not sure if you can respond to 
this, so if not, don't worry about it. Mr. Greenwood knows, 
though he and I have talked, and there are a number of what I 
will refer to as ``sanctuaries,'' for lack of a proper word. I 
am not saying that they are all adequate sanctuaries around the 
country. I know there is one, in my district in Florida, which 
has been rendered by the Agriculture Department, to be not 
quite up to standard.
    I guess my question is while considering expenses is it 
better to have 1 or 2, however many might be required, 
sanctuaries, located in Louisiana, which I believe is the 
location being considered right now, if I remember correctly, 
as opposed to possibly affording the dollars to the current 
sanctuaries, which are maybe not fit adequately today? In other 
words, would we do as good a job or a better job concentrating 
on the sanctuaries that now exist and need to be retrofitted, 
if you will, against the one large sanctuary? I don't know if 
you get my point.
    Ms. Goodall. I do. I don't personally--I think you will 
find differences of opinion on this among the people who work 
with sanctuary chimps, but I personally don't think one huge 
sanctuary would be a very useful thing. For one thing, the fear 
of disease spreading through and for another--I don't know--so 
many chimps all together might not be good. We are talking in 
terms of a couple hundred here. So my feeling would be that 
maybe, in some cases, existing sanctuaries can be slightly 
enlarged, but that has already been done with all the chimps 
that came out of the LEMSIP lab. And in other cases, building 
new sanctuaries particularly for those chimpanzees who are 
infected, and that's the one you are talking about in 
Louisiana.
    Mr. Bilirakis. Yes. Thank you very much, Doctor.
    Mr. Greenwood?
    Mr. Greenwood. Thank you, Mr. Chairman. Let me thank you 
for holding this hearing. I really deeply appreciate it and for 
the chairman and other members here who have asked me why I 
have introduced this CHIMP bill, you now know all of the good 
reasons, but your also having had the opportunity to meet Dr. 
Goodall know how impossible it would be to say no to her after 
such a request.
    There are two points, Dr. Goodall, that I think we need to 
have your testimony on. The biggest stumbling block I think 
right now between the National Institutes of Health and our 
efforts here are this line that we have drawn about permanency. 
What we've said in the bill that once, and it is for the 
researchers to determine this, but once a researcher says that 
this particular chimpanzee is no longer needed for research, 
that it would go to the sanctuary and be done, and it would 
retire there, and the NIH feels that they need the ability to 
pull them back out, I think and we will query them soon, but I 
think their focus is if there was some dread disease that 
suddenly was newly discovered and we needed to do massive 
amounts of research, that we might suddenly wish we could pull 
hundreds of these chimpanzees out for research. I would like 
your comments about that. Why you think it is important that 
the retirement be a one-way street, if you will?
    Ms. Goodall. I think it is important for ethical reasons 
and once you admit that the similarities in brain and central 
nervous system have created a being who is like us in so many 
ways, in particular, the expression of emotions and the 
intellect, then to take such a being out of some kind of close, 
and for them, probably extremely unpleasant confinement, to 
give them a slight taste of what it is like to be more like a 
real chimp, to have some freedom, to have some control over his 
or her life, and then suddenly to take them out again would be 
very ethically wrong, in my opinion.
    On the other hand, if you had to choose, you know, thinking 
from the point of view of the chimp, if you are a chimpanzee 
now in a 5-foot-by-5-foot cage, and you have a chance of 
getting out, even if meant being pulled back in in 15 years, 
probably you would choose to go out for 15 years, but that is 
down the road. On principal, I don't think they should be 
pulled back in.
    Mr. Greenwood. Thank you. If I have the time, the second 
issue which is very related to that one goes to the nature of a 
chimpanzee. I think, as you began your statement, that some 
time ago people didn't ascribe emotions to these animals and 
now that has changed. It has probably changed for many people, 
maybe most people but not necessarily for everyone. This is the 
thing that I think you know the most about, what these animals 
are like in terms of their emotions and their feelings and 
their ability to suffer or to feel joy. Could you share your 
thoughts on this?
    Ms. Goodall. As you know, we have worked for 40 years in 
the Gombe National Park as well as some other places. And I 
think the thing that really strikes you is how much like us 
their behavior is. You have got this long childhood, 5 years of 
suckling and 5 years during which the child is quite dependent 
on the mother and is, during all this time, learning, learning 
by observing the actions of others around and the long-term 
bonds that therefore can develop between mother and child as 
the child gets older and then between the siblings as the next 
child is born when the eldest is 5 or 6.
    So you have got these long-term, friendly, supportive bonds 
developing between them lasting throughout life and we see the 
non-verbal expressions of communication: Kissing, embracing, 
holding hands, patting on the back, grinning and anger, and 
these are postures and gestures that we use ourselves in our 
own nonverbal communication, and they are pretty similar in 
different cultures around the world, and the chimps are 
triggered by the same kind of things that cause them in us, so 
they clearly mean the same kind of thing.
    We have seen examples at Gombe of chimpanzee mothers dying 
and their offspring, even though they are able to care for 
themselves nutritionally, they die of grief, apparent grief 
because they show symptoms like clinical depression in small 
human children and they give up, they don't want to eat, don't 
want to interact with others.
    We see amazing examples of altruism. If the mother dies, 
the elder sister or brother will adopt the baby. Providing it 
can survive without milk, then that will be a successful 
adoption. The child may live. The most fascinating one of all, 
there was a little infant of 3\1/4\ who had no brother and 
sister when his mother died, and he was adopted and cared for 
by a 12-year-old adolescent male who waited for him, let him 
ride on his back. If little Mel whimpered begging for food, 
then Spindle would share his food. When Mel crept up to his 
nest at night and sat attentively on the edge because they make 
these beautiful, soft leafy beds every night, then Spindle 
would reach out and draw him in. Spindle would even risk 
rousing the ruff of the adult males by running in to collect 
Mel if he got to near to the big males and they were about to 
start one of their magnificent charging displays when they may 
actually, along with picking up and hurling rocks and branches, 
if an infant gets in the way, they may pick the infant up and 
throw it, and the mother's job is to take the infant away, and 
Spindle did that, even though he was of that age when he is 
really hero worshipping the big male. So you see the whole 
gamut.
    Mr. Greenwood. By contrast, what do you observe when you 
see these chimpanzees in captivity in small wire cages?
    Ms. Goodall. They have no ability to express their 
feelings, their emotions, except rattling the cages or reaching 
out a sad little hand and begging you to stop and interact with 
them for a moment. I think the worst thing for me in a small 
cage, and this includes some zoos as well, is that they have no 
ability to control their day-to-day lives. In the wild you get 
up in the morning and you choose, do I want to go off with a 
big group of other individuals, patrol the boundary, perhaps go 
on a hunt or do I want to wander off with one or two females 
and be peaceful, or maybe I want to go by myself or perhaps 
with a little group of the boys.
    So there is this constant choice, and this magnificent 
freedom in which they can express themselves as they will and 
in a small cage, none of that is possible. You know, they love 
that comfort. So when they make these nests at night, sometimes 
they will lie down and then they will sit up and reach out and 
pick a handful of soft leafy twigs and put it under their head.
    So often in these lab cages they have nothing, maybe one 
motorcar tire and in some of the cages they can't even stretch 
out to their full length.
    Mr. Greenwood. Thank you, Mr. Chairman.
    Mr. Bilirakis. I thank the gentleman. Mr. Green, are you 
prepared to inquire or would you defer?
    Mr. Green. Yes, sir.
    Mr. Bilirakis. Mr. Bryant.
    Mr. Bryant. Thank you, Mr. Chairman. Thank you for holding 
this hearing. Doctor, it is good to have you here. We really 
appreciate your very qualified testimony. I apologize to you 
for being late, and I understand you may have to leave also, 
but to other members of the panel that may have to leave. Much 
like you have just described chimpanzees, Members of Congress 
also have to make a lot of choices throughout our day. 
Sometimes we have to go out and hunt. Sometimes we have to go 
out and play with the boys and hopefully we are not chasing too 
many of the females. But we are having to make those decisions 
today with our schedule and every day, but I do thank you for 
providing such insight into this issue.
    As I said, I think we are both going to have to leave 
probably before the testimony from the NIH is given in the 
second panel, but I did want to follow up and I know you 
referenced some of that, some of your responses, but I want to 
follow up and give you more opportunity to address that issue, 
a couple of issues that are raised actually in the NIH 
testimony.
    Of course, I think they testify similar to you that 
chimpanzees have unique health care requirements and pose 
hazards to caretakers and to other unexposed animals in the 
colonies and to the public, so therefore, their care must be 
done by people with knowledge and expertise specific to their 
histories.
    One of their concerns is that under this bill, and I am 
going to support this bill, but under the bill, the NIH is 
going to look to private--not NIH actually, the bill would 
require some matching funds from private organizations in NIH's 
concern about the well-being of the chimpanzees and if the 
funding stream over a long period of time might dry up or be 
affected where you are dependent, or a portion of that, at 
least, on private entities, is that a concern?
    Ms. Goodall. I suppose it could be a concern, but I think 
so often in this life we embark on something and are prepared 
as best we can be, and the fact that something might go wrong 
way down the line I don't think for me is an excuse for not 
doing it at all, and I think we have to be very determined that 
once we get this going, then the funding will be found. People 
become quite emotional about chimpanzees. They have enormous 
supporters and even those chimps that are infected with HIV, 
they are actually not sick and it is extremely--I am not the 
one qualified to talk about this. I think Dr. Prince is, but 
you can touch them and play with them and it would be extremely 
unlikely that they would infect you unless they savagely bit 
you.
    So the fact that some money might dry up way down the road, 
I would not think is a good reason for not starting.
    Mr. Bryant. Thank you. I like that concept in the bill too 
where we do bring the private sector in in addition to the 
government. That is a principle I like to see in as much 
legislation as possible. The second issue, and my final issue, 
has to do with NIH's concern about their ability to access the 
chimpanzees and for subsequent followup, I guess research or 
after the retirement there might be other unforeseen reasons or 
purposes for them to have access.
    They mentioned potentially minimally invasive procedures 
such as blood draws and urine collection, and even perhaps 
conducting postmortem examinations of those who die. I know you 
mentioned that under the bill they would have access, but do 
you see any conflict in what you are reading in the bill and 
what you are testifying to and what the NIH would need from a 
medical standpoint in subsequent research.
    Ms. Goodall. Again, I am not really qualified on this, but 
I do know we used to have chimpanzees at the Stanford outdoor 
primate facility, some of whom were adults, and we managed to 
train every single one of them to put their arm out to donate 
blood, and I was just with the banobo colony in Milwaukee where 
I think about half the colony, they put their arm through a 
little tube and blood is taken. Urine is pretty easy to 
collect. It is quite simple. We even do that in Gombe National 
Park in the wild.
    Postmortems when they are dead, I don't think anybody would 
argue or worry about that. Caring for them when they are sick 
and the facilities that take on the chimps that are being 
infected, they are going to be staffed by people who are aware 
of the condition of the chimps and understand how they should 
safely be treated.
    Mr. Bryant. Thank you, Mr. Chairman. I still have some time 
left and would yield it back.
    Mr. Bilirakis. I appreciate that. I thank the gentleman, 
Mr. Green, to inquire.
    Mr. Green. Thank you, Mr. Chairman. And Dr. Goodall, again, 
I will follow up my colleague from Tennessee and apologize for 
all the schedules we have between votes and constituents and 
other meetings. First of all, I believe, as Members of Congress 
and as humans, we have a responsibility, and that is why I 
think this bill is a good piece of legislation. I have a couple 
of questions. One, should the chimpanzees that are not used in 
research, such as zoo animals, be eligible to apply for 
retirement to a sanctuary, and is there an estimate on the 
numbers that we may have and comment on other non-research 
sources for these animals so we can see, because again, I think 
we have an obligation, not only as Members of Congress, but 
also the zoos in the country and the other facilities that are 
non-government.
    Ms. Goodall. Well, the zoos are trying to get better and 
better, and I have seen some facilities in some of the zoos. 
That would be the kind of situation that we are envisioning as 
a sanctuary, so there is a merging there between a good zoo and 
a sanctuary. There are some places that are described as 
sanctuaries which are actually not sanctuaries at all. They are 
very little better than a bad zoo. You have to go through each 
one of these one by one and assess them. There are certain 
wayside zoos. There are all the chimpanzees in entertainment. 
That is another big problem, but we can't, I suppose, deal with 
that here. They should be eligible for retirement in 
sanctuaries. Instead, traditionally and typically, the ex-
circus chimps, the ex-pets have ended up in medical research.
    Mr. Green. Do you have any kind of idea about the numbers? 
It seems like it would be--consider the size of our country, 
would it be double what we expect----
    Ms. Goodall. There is about 1,500 in medical research and 
the figure which used to be bandied around is between 4- and 
500 in zoos, but there are so many pets, so many chimps. We are 
trying to make a list of them all, but it is very hard, because 
it is still legal to buy and sell these closest relatives of 
ours. That, in itself, would make a big difference if there was 
a bill in the future to make it illegal to buy and sell our 
closest relatives. At the moment you can go and buy a chimp 
without being asked at all if you know what they are like and 
what you are letting yourselves in for. People think they will 
never grow bigger than this.
    Mr. Green. We have that problem, though, with lots of other 
species. Particularly in my home State of Texas, we have people 
who keep tigers and lions and they don't realize the 
responsibility they have with it. In fact, in the State, we 
have actually had to pass laws especially on their liability 
that they have, and oftentimes people didn't realize it. They 
may not want that liability question just to be able to keep 
their pet tiger. Some of us in Congress think we already have a 
tiger. One, I appreciate your work for many years, and not only 
as a Member of Congress, even before I was a Member of 
Congress, I followed your work and I appreciate it and your 
suggestions and your statement here today.
    Thank you, Mr. Chairman.
    Mr. Bilirakis. I thank the gentleman.
    Dr. Goodall, if I may, the gentleman maybe will yield back.
    Mr. Green. I yield back my time.
    Mr. Bilirakis. Dr. Strandberg, from the NIH, is going to 
testify that the NIH can't support this legislation because it 
would make the animals permanently unavailable for study or 
monitoring. Expand upon that. What is your feeling there? How 
strongly do you feel about their not being available for 
invasive research procedures?
    Ms. Goodall. Well, I think the most important thing here is 
can they be left in the sanctuary and there are certain 
procedures, even over and above taking blood which could be 
carried out--this isn't my field at all, but I imagine there 
are some--we even treat----
    Mr. Bilirakis. But in your opinion.
    Ms. Goodall. My opinion, yes, and there are some things you 
can do without taking them away from their sanctuary. They 
might require a small operation. You might have to keep them in 
a holding facility which would be there, a veterinarian 
facility built into all these sanctuaries.
    I think the really cruel thing from the point of view of 
the chimpanzee, as I know him, would be to take him away from a 
place where he has now become resocialized, he has learned to 
understand the concept of freedom again, or relative freedom, 
and to put him back in the small square lab cage or the 
slightly bigger square lab cage, this, in my mind, would be 
very cruel.
    Mr. Bilirakis. Thank you. Any further questions from any 
members of the subcommittee?
    Doctor, it has been an honor to have you here today. You 
obviously have been an awful lot of help and you have given us 
a viewpoint that only you can really provide, and you are now 
excused, and again, with great thanks on our part.
    Ms. Goodall. Thank you. As an ambassador for the chimps, I 
am really happy that there is a group of people here who care 
the way I do.
    Mr. Bilirakis. Thank you, Doctor.
    The Chair wants to acknowledge and thank Dr. Strandberg, 
who is a special assistant to the director of the National 
Center for Research Resources with the NIH.
    Ordinarily, the administration is the first witness but Dr. 
Strandberg very kindly and considerately gave up that to Dr. 
Goodall. As Dr. Strandberg comes forward, the Chair will now go 
into opening statements.
    First of all, of course the opening statements of all 
members of the subcommittee will be made a part of the record. 
The Chair will proceed with his quick opening statement 
thanking all the witnesses who have taken the time to join us. 
Also wanting to recognize and thank the gentleman from 
Pennsylvania, Mr. Greenwood, for his interest and concern on 
this particular issue.
    Chimpanzees have been used as research subjects in this 
country for many years. Biomedical research and research on 
infectious diseases in particular has focused on chimpanzees 
because of the similarities, as Dr. Goodall told us, to human 
immune systems. In fact, 98 percent of human DNA and chimpanzee 
DNA is identical. One direct result of research on chimpanzees 
has been the development of the hepatitis B vaccine.
    In the early 1980's, the National Institutes of Health 
launched a breeding program to ensure that there were enough 
chimpanzees for research on HIV and AIDS. However, researchers 
soon discovered that chimpanzees were not a good model for this 
sort of research since chimpanzees infected with HIV rarely 
develop full-blown AIDS.
    Today the Federal Government has a surplus as already has 
been discussed of research chimpanzees. There are now 
approximately 1700 of them in Federal research facilities while 
estimates of the number of chimpanzees actually needed in 
primate research laboratories range from 600 to 1,000, 
therefore a surplus.
    The testimony we will hear today will reflect differing 
views among experts about how to address the surplus of 
research chimpanzees. Some of the issues for consideration 
include whether a sanctuary should be established to meet their 
long-term needs and whether the NIH should be able to recall 
retired chimpanzees for further research.
    Again, I would like to welcome and thank today's witnesses, 
and we will now recognize Mr. Green sitting in for Mr. Brown as 
the ranking member for his opening statement. Please proceed, 
sir.
    Mr. Green. Thank you, Mr. Chairman. I will be as brief as 
possible. One, I appreciate the opportunity to have this 
hearing today, and I also thank my colleague, Mr. Greenwood 
from Pennsylvania for his excellent work on crafting the ChiMP 
Act. I look forward to hearing more from the testimony today 
other than Dr. Goodall.
    As human beings, supposedly the most intelligent species on 
earth, we have a responsibility and moral obligation to ensure 
that all of God's creatures are treated with respect. There are 
approximately 1500 captive chimpanzees in labs in the United 
States today, and the National Research Council advised NIH a 
few years ago that a core population of 1,000 chimps should be 
transferred to and supported by the Federal Government.
    The NRC report recommended that sanctuaries for chimps that 
have been retired from research should be created, and that the 
NRC suggested a private public approach to governing these 
sanctuaries. One, what has NIH done since this report was 
released, and unfortunately I don't think enough, and although 
the agency recently took steps and rescued some chimps at the 
Coulston facility, too many other animals are suffering and 
because we have not taken action on this issue.
    Again, I was honored to have Dr. Goodall here along with 
the other experts today to lend their support to Mr. 
Greenwood's bill, and hopefully our hearing will result in a 
markup and passage of this bill as soon as possible.
    Thank you, Mr. Chairman.
    [The prepared statement of Hon. Gene Green follows:]
  Prepared Statement of Hon. Gene Green, a Representative in Congress 
                        from the State of Texas
    Mr. Chairman, thank you for calling this important hearing today. 
I'd like to commend my colleague, Mr. Greenwood, for his excellent work 
in crafting the CHIMP act.
    I look forward to hearing more about the need for this important 
legislation today.
    As human beings, supposedly the most intelligent species on earth, 
we have a responsibility and a moral obligation to ensure that all of 
God's creatures are treated with respect.
    There are approximately 1,500 captive chimpanzees in labs in the 
United States today.
    The National Research Council advised NIH, three years ago, that a 
core population of 1,000 chimps should be transferred to, and supported 
by, the federal government.
    The NRC report recommended that sanctuaries for chimps that have 
been retired from research should be created. And, the NRC suggested a 
public-private approach to governing these sanctuaries.
    What has NIH done since this report was released? Unfortunately, 
not enough. Although the agency recently took steps to rescue some 
chimps at the Colson facility, too many other animals are suffering 
because we have not taken action on this issue.
    We are honored to have Dr. Jane Goodall and other experts here 
today to lend their support to Mr. Greenwood's bill.
    Hopefully, this hearing will result in the mark-up and passage of 
that bill as soon as possible.

    Mr. Bilirakis. I thank the gentleman.
    Mr. Greenwood for an opening statement.
    Mr. Greenwood. Thank you, Mr. Chairman. Again, I do want to 
thank you personally for holding this hearing. And I don't have 
a formal opening statement, but would make a couple of points. 
Most of the factual statements have been made by Dr. Goodall 
and the chairman in his opening statement.
    I want to reiterate this quote from the 1997 study of the 
National Research Council, and they found that if quote, the 
current lack of long range planning and coordination continues, 
the combination of excess captive chimpanzees in the U.S. 
biomedical population and lack of facilities and resources to 
care for increasing numbers adequately will soon become an 
insurmountable problem of enormous complexity, cost and ethical 
concern, and it was they who recommended the concept of 
sanctuaries in four states specifically.
    This should be what we call a no-brainer. This is our 
opportunity to continue to use these animals for research where 
it is warranted; second, to save taxpayers' dollars because we 
think we can do this with a combination of public and private 
sources at less cost. We are spending millions of dollars now 
to keep these animals in inhumane conditions and finally, to do 
what Dr. Goodall is most concerned about, and that is, to treat 
these animals humanely. There are some difficulties. I am 
convinced that we can, and that we will, and that we must 
resolve them. We have to get beyond this. I don't think there 
is any question.
    There is a difference of opinion about the fact that we 
need to get these sanctuaries going and get them up and 
running, and the importance we place on this, I think, is 
really a factor of how deeply we believe in what Dr. Goodall 
said about what kind of beings these chimpanzees are. Our 
stature is not determined by our ability to decide to determine 
how different we are and how superior we are, or inferior 
chimpanzees are, and how unlike us they are but rather, I think 
our stature is measured by our degree of humanity toward them 
and that is what this process is about. I yield back, Mr. 
Chairman.
    Mr. Bilirakis. I thank the gentleman.
    [Additional statements submitted for the record follow:]
 Prepared Statement of Hon. Tom Bliley, Chairman, Committee on Commerce
    I want to thank the gentleman from Pennsylvania, Mr. Greenwood, for 
his leadership on this issue, and of course, the Subcommittee Chairman, 
Mr. Bilirakis.
    Chimpanzees have been used in research studies for decades. Humans 
have benefitted, and continue to benefit from research done in primate 
laboratories across the country.
    However, due to a successful National Institutes of Health breeding 
program and changes in the use of chimpanzees for research, a surplus 
of chimps has developed.
    The testimony we will hear today will reflect differing views among 
experts about what to do with the retired chimpanzees.
    Mr. Greenwood has introduced a sensible, bipartisan bill that 
incorporates many of the recommendations of a 1997 National Research 
Council panel. He has also worked with various organizations to find 
common ground on this troubling problem. This hearing will be a good 
opportunity to air some outstanding issues and to learn more about this 
issue.
    We have before us two panels of witnesses. I welcome their 
testimony and look forward to hearing their views on this issue.
                                 ______
                                 
Prepared Statement of Hon. Sherrod Brown, a Representative in Congress 
                         from the State of Ohio
    Thank you, Mr. Chairman. And thank you to our distinguished panel 
of witnesses. It's a pleasure to have you testify before us, Dr. 
Goodall.
    And I want to commend my colleague, Mr. Greenwood, for bringing 
Congressional attention to this issue.
    Great work is being done in research with the use of animal 
subjects like Chimpanzees. Federal agencies including the NIH, CDC, FDA 
and NASA rely on chimps for research.
    Chimps have proven to be an invaluable resource in the study of 
human diseases--breakthroughs in Hepititis B and C can be attributed to 
research conducted with these primates.
    Ohio State University's Chimpanzee Center is expanding their 17 
year old program on cognitive and behavioral research and building a 
new facility. They are very supportive of the need for the sanctuaries 
outlined in this legislation.
    In the mid-to-late eighties, the federal government launched a 
vigorous chimpanzee breeding program aimed at finding answers to the 
cause of AIDS.
    While these animals served us well in research that led to 
breakthrough medical treatments for many diseases, researchers 
discovered chimps were not a good model for AIDS research.
    As a result, there is a surplus of Chimps living with HIV that 
deserve our attention in their post-research existence.
    Today, chimps no longer needed for research are being housed in 
warehouses in laboratories throughout the nation at a price of $7.5 
million annually.
    Some are living at a facility charged with gross negligence in 
their treatment of chimps.
    The passage of this bill would establish a cost-effective, public-
private partnership to create a sanctuary system to provide for the 
lifetime care of chimps.
    These sanctuaries would be staffed by trained professionals and 
overseen by a board of professionals with a thorough understanding of 
the medical needs of the chimps and the safety requirements of their 
caretakers.
    There is a moral responsibility for the long-term care of 
chimpanzees that are used for our benefit in scientific research.
    1 would urge this committee not only to consider, but to mark-up 
and pass this bill.
    Thank you Mr. Chairman.
                                 ______
                                 
Prepared Statement of Hon. Anna G. Eshoo, a Representative in Congress 
                      from the State of California
    Thank you Mr. Chairman for holding this hearing today on protecting 
chimpanzees which have been part of biomedical research.
    The tale of chimpanzee use is a mixed one. Early research using 
chimpanzees focused on potential effects to humans from space 
exploration. Today, chimpanzees are being used for medical research on 
issues such as infectious disease. From levels numbering in the 
millions, chimpanzees now have populations of less than 200,000 in the 
wild. The United States holds approximately 1,700 chimpanzees in U.S. 
laboratories but only needs approximately 600, according to the 
National Institutes of Health.
    Regardless of one's view on the necessity for this type of 
research, I look forward to hearing from our witnesses today to discuss 
ways we can humanely treat these special creatures after they've been 
used in biomedical research conducted by the government.
    The need for a humane retirement system for chimpanzees no longer 
needed in research is vitally necessary if we're to fulfill our 
responsibility of being good custodians of these animals. I'm proud to 
be a co-sponsor of legislation, H.R. 3514, the Chimpanzee Health 
Improvement, Maintenance and Protection Act, which would provide for a 
system of sanctuaries for chimpanzees that have been designated as 
being no longer needed in research conducted or supported by the Public 
Health Service.
    This important bill incorporates many of the recommendations 
included in a 1997 study by the National Research Council on ways to 
improve the long-term care of chimpanzees. The bill mandates that all 
surplus chimpanzees owned by the Federal Government shall be accepted 
into the long-term sanctuary system to ensure that they are permanently 
managed for their well-being and in an ethical manner.
    This bill is necessary, especially considering the continuing and 
alarming reports of animal abuse by the Coulston Foundation which 
currently houses hundreds of retired chimpanzees. In fact since 1995, 
the Agriculture Department has investigated and brought charges against 
Coulston for numerous violations of the Animal Welfare Act, including 
the death of at least nine chimpanzees.
    We should not stand by and allow for this horrendous treatment at 
any housing facility for chimpanzees. I ask this Committee to learn 
from the testimony given today and move for speedy action on the 
Chimpanzee Health Improvement, Maintenance and Protection Act.
                                 ______
                                 
    Prepared Statement of Hon. John D. Dingell, a Representative in 
                  Congress from the State of Michigan
    Mr. Chairman, thank you for holding today's hearing to discuss the 
role and obligation of the U.S. government for the long-term care of 
surplus chimpanzees that were bred and used for biomedical research of 
direct benefit to humans. I am pleased that we will be hearing from Dr. 
Jane Goodall on this issue. Chimpanzees could not have a more respected 
and compassionate advocate.
    I am concerned, however, about the message the decision to hold 
this hearing, but not to hold others, sends to the American people 
about the priorities of this Congress. A multitude of critical problems 
in America's research infrastructure and healthcare delivery system 
persist, while proposals to deal with them languish without hearings 
and action by this Subcommittee. These include: funding 
reauthorizations for program administered by the National Institutes of 
Health and the Substance Abuse and Mental Health Services 
Administration; restoration of federal jurisdiction to control tobacco 
use by America's children; access to prescription drugs for senior 
citizens; long-term care for the elderly; access for America's children 
with rare and/or serious health problems to pediatric specialists, 
medications and clinical trials; adequate protection for human research 
subjects; and enhanced protection of confidential medical records. 
These matters warrant attention too.

    Mr. Bilirakis. Dr. Strandberg, again our gratitude for 
yielding to Dr. Goodall and for being here. Dr. Strandberg is 
the director of comparative medicine with the National Center 
of Research Resources, National Institutes of Health. Your 
testimony is very significant to what we are trying to do here 
today. Sir, we have set this at 5 minutes but obviously I will 
not cut you off. Please proceed.

     STATEMENT OF JOHN STRANDBERG, DIRECTOR OF COMPARATIVE 
  MEDICINE, NATIONAL CENTER FOR RESEARCH RESOURCES, NATIONAL 
                      INSTITUTES OF HEALTH

    Mr. Strandberg. Mr. Chairman, and members of the committee, 
thank you very much. You have given my background and my 
current position, so I won't reiterate that.
    When I joined the NIH in 1998, just a bit over 2 years ago, 
one of my priorities was to develop a trans-NIH plan to address 
how to optimize the care and the use of chimpanzees in 
federally funded biomedical research. I welcome the opportunity 
to speak to you today about the contributions that chimpanzees 
make and have made in selected areas of biomedical research and 
why this research is important to the public and its health. In 
addition, I will address NIH's continuing efforts to ensure 
that the chimpanzees used in biomedical research do receive 
proper care and monitoring. Let me assure you that the NIH 
takes very seriously its responsibility for the health and 
welfare of research animals of all types and that of the people 
who care for them.
    Animal-based research continues to be a highly productive 
and valuable approach to solving human health problems and to 
controlling devastating and debilitating diseases. For example, 
polio vaccine was developed and safety tested using monkeys. We 
would not have a vaccine against polio at this time without 
monkeys.
    Animal models have also provided critical information for 
the development of treatments for cancer, cardiovascular 
diseases and a host of others. Significant challenges remain 
however in the fields of organ transplantation, inherited 
diseases, and infectious diseases, including HIV and hepatitis 
C.
    There are numerous instances in which only non-human 
primates and man's most closely related species, the 
chimpanzee, can provide solutions to important human diseases. 
Recent examples of these include the successful development of 
a vaccine against hepatitis B. Ongoing efforts are trying to 
develop vaccines for other infectious diseases such as 
hepatitis C, which is extremely important in this country, as 
well as respiratory syncytial virus or, RSV, the most common 
cause of respiratory infections of infants and young children. 
Both of these infections cause significant morbidity and 
mortality in this country.
    The NIH currently has title to approximately 600 
chimpanzees. As noted, there are approximately 1600 chimpanzees 
in this country that have participated in biomedical research. 
However, not all these chimpanzees fall under the purview of 
the Public Health Service. Some have participated in research 
conducted in the private sector principally by the 
pharmaceutical industry. We estimate that approximately 500 
research chimpanzees have been exposed to or are chronically 
infected with agents transmissible to humans. These chimpanzees 
have unique health care requirements, impose hazards to their 
caretakers and to other unexposed animals in their colonies. 
Thus, we believe their care must be provided by individuals 
with knowledge and expertise specific to their medical 
histories. As noted, chimpanzees are highly complex animals 
with housing requirements reflecting their mental abilities, 
their physical strength, and the inter-animal interactions. 
These requirements are very specialized and costly to deal 
with.
    In response to the AIDS epidemic, a chimpanzee-breeding 
program was established in 1986 as has been noted. However, 
researchers found that although the chimpanzee can be infected 
with HIV, the development of clinical AIDS occurs in 
chimpanzees late or not at all. Thus, by the 1990's, concerns 
were raised about an apparent surplus of chimpanzees. In 
response to a request from the NIH, a National Academy of 
Sciences panel produced a series of recommendations and the NIH 
has taken several concrete steps to address them. These 
recommendations form the basis of the chimpanzee management 
program that has been implemented by the National Center for 
Research Resources at NIH.
    The chimpanzee management plan includes an advisory body of 
independent research scientists from outside the NIH with 
expertise in ethics, animal behavior, veterinary medicine and 
genetics to discuss and resolve issues related to chimpanzees 
that have participated in biomedical research.
    In accordance with the National Academy Panel 
recommendations, the NIH has implemented a breeding moratorium 
on NIH supported chimpanzees. In fact, a breeding moratorium 
actually began 2 years before the report was officially issued, 
as well as a policy that rules out euthanasia as a method of 
population control. To provide high quality care while 
conserving resources, the NIH will consolidate its existing 
five chimpanzee facilities into two sites. In addition, an 
improved data base of all chimpanzees that have participated in 
research will allow us to track animals more efficiently over 
time and to plan for needed resources. The NIH must also 
consider biomedical researchers' needs to monitor animals that 
have been the subject of research in the past. Followup is 
needed to gain further information from the research in which 
they have participated. Much of these data can be gathered 
through minimally invasive procedures, such as blood draws and 
urine collection, as has been noted. In addition, it is 
important to conduct postmortem examinations on those that die.
    No one can tell what the future will bring. At some future 
point in time, a scientist might discover a treatment that 
could potentially eradicate HIV and hepatitis virus from the 
infected individuals and develop a candidate hepatitis vaccine. 
It would be very unfortunate if we did not have access to 
animals with long-term infections to assess new treatments and 
vaccines. Not only would this be poor stewardship of our 
Federal investment in these animals, but it could have a 
substantially negative impact on the health of the animals and 
the chimpanzees. Thus, NIH believes it would be a mistake to 
establish sanctuaries for research chimpanzees that would make 
them permanently unavailable for study or monitoring.
    The NIH, however, would be pleased to work with the 
Congress to enhance the existing network of long-term care 
facilities for chimpanzees used in biomedical research that 
will allow such animals to remain the subject of further 
scientific inquiry should a future need arise. Sometimes there 
are situations that require immediate attention. The NIH 
recognizes the need for vigilance, flexibility, and action when 
problems present themselves.
    This is the case with the Coulston Foundation. The Coulston 
Foundation is the largest chimpanzee facility in the world with 
approximately 600 animals. Let me make it very clear that we 
are extremely concerned about the health and welfare of these 
animals and have provided the Coulston Foundation with funds to 
assure the care and feeding of these animals through closely 
monitored administrative supplements. I must stress that there 
is no other facility where these animals could currently be 
relocated.
    The NIH has also worked closely with the USDA and the 
Coulston foundation to identify, mitigate, and correct problems 
which are identified. NIH has conducted regular site visits 
during the past year. I recently participated in such a site 
visit, and at that time, witnessed no evidence of significant 
hazards to the chimpanzees. This is our major concern at this 
point. The NIH has recently taken title to 288 chimpanzees at 
the Coulston Foundation, all of which have participated in 
biomedical research and are infected with HIV and/or hepatitis 
C.
    At the same time, the NIH has announced that we will issue 
a request for proposals for the operation and maintenance of a 
long-term care facility for these animals located at the 
Holloman Air Force base. In summary, the NIH recognizes that 
both research ethics and good stewardship of public funds 
require us to attend to the care of the chimpanzees currently 
or formally used in biomedical research. We will continue to 
use our resources and leadership to promote the health and 
welfare of chimpanzees used in such research and to ensure that 
appropriate continuing care is provided to those chimpanzees 
for which we are responsible.
    Thank you for giving the NIH the opportunity to testify on 
this very important topic. I would be pleased to address any 
questions that you may have at this time.
    [The prepared statement of John Strandberg follows:]
  Prepared Statement of John Strandberg, National Center for Research 
                Resources, National Institutes of Health
    Mr. Chairman and Members of the Committee, I am Dr. John 
Strandberg, Director of the Comparative Medicine area of the National 
Center for Research Resources at the National Institutes of Health 
(NIH). I joined NIH in 1998 from Johns Hopkins University School of 
Medicine where I directed the comparative medicine program. One of my 
priorities on arriving at NIH was to develop a trans-NIH plan to 
address how to optimize the care and use of chimpanzees in federally 
funded biomedical research. I welcome the opportunity to speak with you 
today about the contributions chimpanzees make in selected areas of 
biomedical research and why this research is important to the public 
and its health. In addition, I will address NIH's continuing efforts to 
ensure that chimpanzees used in biomedical research receive humane 
treatment and monitoring.
    Let me assure you that NIH takes very seriously its responsibility 
for the health and welfare of research animals of all types and that of 
the people that care for them, whether directly through an intramural 
program or in partnership with extramural organizations.
Chimpanzees and Research
    Animal-based research continues to be a highly productive and 
valuable approach to solving human health problems. We have discovered 
the means of controlling devastating and debilitating diseases using 
vaccines developed and tested in animals. The polio vaccine is one of 
many examples that might be cited; this vaccine was developed using 
monkeys, and the safety testing of vaccines was done in monkeys for 
many years. Animal models have provided critical information in the 
development of treatments for cardiovascular diseases, such as 
hypertension and cardiac arrhythmias. Significant challenges, however, 
remain in the fields of organ transplantation, inherited diseases, and 
infectious diseases, including HIV and hepatitis C. Animal-based 
research will continue to play an important role in meeting the 
scientific and public health challenges that lie ahead.
    Although there are striking similarities between the physiological 
systems of humans and various species of other animals, there is no 
single animal species that is appropriate for the study of all 
diseases. For example, much of what we know about the immune system has 
come from studies with mice, and much of what we know about the 
cardiovascular system has come from studies using dogs. There are 
numerous instances in which only nonhuman primates and man's most 
closely related species, the chimpanzee, can provide the solutions to 
important human diseases. Recent examples of these include the 
development of a vaccine against hepatitis B virus. Ongoing efforts are 
trying to develop vaccines for other infectious diseases, such as 
hepatitis C (HCV) and respiratory syncytial virus (RSV), the most 
common cause of respiratory tract infections (pneumonia and 
bronchiolitis) in infants and young children. Both infections cause 
significant morbidity and mortality in this country.
    Chimpanzees are the only animal, other than man, that can be 
infected with human immunodeficiency virus (HIV). For this reason, it 
was hoped that they could provide information on the progression from 
HIV infection to AIDS and in the development of treatments and 
vaccines. However, despite the fact that chimpanzees become 
persistently infected with HIV, we found that the development of 
clinical AIDS occurs in chimpanzees late or not at all.Studies using 
chimpanzees have produced a cohort of several hundred animals that have 
been exposed to viruses, with many persistently infected with hepatitis 
C and HIV. These chimpanzees have unique health care requirements and 
pose hazards to their caretakers, to other unexposed animals in their 
colonies, and to the public. Thus, we believe that their care must be 
provided by individuals with knowledge and expertise specific to their 
medical histories.
    The NIH currently has title to approximately 600 chimpanzees. There 
are approximately 1,600 chimpanzees in this country that have 
participated in biomedical research. However, not all these chimpanzees 
fall under the purview of the Public Health Service as some have 
participated in research conducted in the private sector, principally 
by the pharmaceutical industry. We estimate that approximately 500 
chimpanzees that have been used in research have been exposed to or are 
chronically infected with agents transmissible to humans.
    Chimpanzees are highly sophisticated animals with housing 
requirements reflecting their mental abilities, physical strength, and 
inter-animal interactions. Their housing requirements are extensive, 
specialized, and costly. Construction of new facilities therefore often 
takes considerable time and resources.
NIH Chimpanzee Management Program
    The NIH has always monitored the use and humane treatment of 
chimpanzees in biomedical research which it sponsors, because 
chimpanzees constitute a valuable and scarce research resource. In 
response to the AIDS epidemic, the Chimpanzee Biomedical Research 
Program was established in 1986. However, researchers found that the 
chimpanzee model was not capable of answering some research questions, 
and by the 1990's, concerns were raised about the apparent surplus of 
chimpanzees. In response to a request from the NIH, a National Academy 
of Sciences (NAS) panel reviewed this issue and produced a series of 
recommendations. These recommendations form the basis of the Chimpanzee 
Management Program (ChiMP) that has been implemented by the National 
Center for Research Resources at NIH. The ChiMP includes an advisory 
body of independent research scientists to discuss and resolve issues 
related to chimpanzees that have participated in biomedical research. 
This advisory group is composed of scientists from outside the NIH with 
expertise in animal behavior, veterinary medicine, and genetics. The 
group advises the NIH on many issues, including the development of 
programs for long-term care of chimps and their use in research.
    Also, in accordance with the NAS panel recommendations, the NIH has 
implemented: (1) a breeding moratorium on NIH-supported chimpanzees 
(which the NIH actually began two years before the report was issued), 
and (2) a policy that rules out euthanasia as a method of population 
control. The NAS panel proposed a core population of 1000 federally 
owned chimpanzees to meet research needs. That number seems to be a bit 
high today, given limitations of the chimpanzee model in AIDS research, 
and is under consideration by the ChiMP advisory group. To provide 
high-quality care while conserving resources, the NIH will consolidate 
its five existing chimpanzee facilities into two sites. At the 
beginning of the next fiscal year, we expect to make the awards to the 
entities that will operate these two facilities. These sites are 
critical to the placement and humane care of chimpanzees that have 
participated in research. Successful applicants will have proven 
expertise in long term housing and humane care of chimpanzees in 
biomedical research. In addition, a five-year grant was funded in March 
2000 to provide an improved database of all chimpanzees that have 
participated in research. This will allow us to track animals more 
efficiently over time and to plan for resources needed.
    In addition to long-term care and housing needs for the 
chimpanzees, the NIH must consider biomedical researchers' need to 
monitor animals that have been the subject of research in the past. 
Follow-up is needed to gain further information from the research in 
which they participated. Much of the data needed can be gathered 
through minimally-invasive procedures, such as blood draws and urine 
collection. In addition, we would also want to conduct post-mortem 
examinations of those that die.
    No one can tell what the future will bring. At some future point in 
time, a scientist might discover a treatment that could potentially 
eradicate all HIV from infected individuals, develop a candidate 
hepatitis C vaccine, or discover a means of eradicating persistent 
hepatitis infection. It would be very unfortunate if we did not have 
access to animals with long-term infections to assess new treatments 
and vaccines. Not only would this be poor stewardship of our Federal 
investment in these animals, it could have a substantial negative 
impact on the health of humans and chimpanzees.
    Thus, NIH cannot support proposed legislation that would require it 
to establish sanctuaries for chimpanzees and would make the animals 
permanently unavailable for study or monitoring. The NIH, however, 
would be pleased to work with the Congress to enhance the existing 
network of long-term care facilities for chimpanzees used in biomedical 
research, which will allow such animals to remain the subject of 
scientific inquiry should a future need arise. In recognition of this 
need, the NIH has taken the initiative to enlarge and improve housing 
facilities for NIH-supported chimpanzees at two chimpanzee facilities. 
These activities will serve as the basis for responding to the NAS 
recommendations as well as our mutual concerns about the health and 
welfare of chimpanzees used in research.
Chimpanzee Management: Current and Future Challenges
    The continuing use of chimpanzees in NIH-sponsored biomedical 
research is subject to extensive oversight at the level of the Office 
of the Director. The Interagency Animal Models Committee reviews all 
federally supported research protocols that propose using chimpanzees 
to promote the conservation and care of chimpanzees when this species 
is the best or possibly the only model for conducting the research.
    And, as noted above, the NCRR's ChiMP plan is in place. But 
sometimes there are situations that require immediate attention. The 
NIH recognizes the need for vigilance, flexibility, and action when 
problems present themselves. This is the case with the Coulston 
Foundation. The Coulston Foundation is the largest chimpanzee facility 
in the world, with approximately 600 animals. The NIH has provided 
support to ensure the humane care and feeding of the animals through 
closely monitored administrative supplements to cover additional 
expenses within the scope of the existing grant. Since February 22, 
1999, the Coulston Foundation has received supplements of $399,946 from 
the National Center for Research Resources (NCRR) and $700,000 from 
other NIH components.
    The NIH is aware of shortcomings at the Coulston Foundation and has 
worked closely with the USDA and the Coulston Foundation to identify, 
mitigate, and correct identified problems. Furthermore, the NIH has 
conducted regular site visits. I recently participated in a site visit 
and witnessed no evidence of significant hazards to the chimpanzees. 
The NIH will, of course, continue to monitor the Coulston Foundation 
facility.
    The NIH has recently taken title to 288 chimpanzees at the Coulston 
Foundation, all of which participated in biomedical research and are 
infected with HIV and/or hepatitis C, to ensure their continued care 
and well-being. At the same time, the NIH has announced through the 
Commerce Business Daily that we will issue a Request for Proposals 
(RFP) for the operation and maintenance of a long term care facility 
for these animals. Like all other NIH solicitations, this will involve 
a competitive process. Applications will be solicited and subject to 
peer review. An award will be made to the most highly qualified 
applicant, with expertise in both care of chimpanzees that have 
participated in research and in administrative and financial operations 
necessary to run a stable organization to care for those animals. We 
expect to award that new contract at the end of the summer when the 
cooperative agreement with the Coulston Foundation expires. The 
applicants will need to demonstrate expertise in caring for HIV and 
hepatitis C infected chimpanzees as well as financial stability and 
administrative acumen in managing and operating a long term care 
facility for chimpanzees.
Conclusion
    In summary, the NIH recognizes that both good research ethics and 
responsible stewardship of public funds require us to attend to the 
humane care of chimpanzees currently or formerly used in biomedical 
research. We will continue to use our resources and leadership to 
promote the health and welfare of chimpanzees used in such research, 
and to ensure that the highest level of continuing humane care is 
provided to those chimpanzees for which we are responsible.
    Thank you for giving NIH the opportunity to testify on this 
important topic. I would be pleased to answer any questions that you 
may have at this time. Thank you.

    Mr. Bilirakis. Dr. Strandberg, I have heard your testimony. 
Would you say that legislation such as H.R. 3514 would 
undermine any ongoing research studies as now written?
    Mr. Strandberg. It is unclear which animals would go into 
the colonies that are proposed. As I noted, the concern that we 
have is with animals that are persistently infected; this makes 
them hazardous to other animals and to their caretakers and 
thus it is difficult to see how a sanctuary that is outlined 
could cope with that.
    Mr. Bilirakis. Well, you heard Dr. Goodall's testimony, of 
course, and you heard her response to my specific question at 
the tail end there. Would NIH support chimpanzee sanctuaries if 
they are done so under guidelines developed by scientists in 
consultation with animal rights groups so that chimpanzees 
could, under limited circumstances, be recalled?
    Mr. Strandberg. As I said, NIH will support facilities 
which would provide long-term care for chimpanzees that have 
been used in biomedical research. I think it is important that 
these facilities have many of the characteristics that have 
been outlined; that they provide exercise, very good 
environmental enrichment, as well as chances for animals to 
interact with one another insofar as their health status 
permits.
    Mr. Bilirakis. Do you know if NIH has any suggested wordage 
that might be, to your suggestion, become a part of this 
legislation?
    Mr. Strandberg. I don't know at this time. We could 
certainly work at providing that back to the committee.
    Mr. Bilirakis. I think it is important we work together. 
Nobody knows what the future of this legislation is going to be 
considering this year, being such as it is but it is important 
that we work together.
    There is a surplus of chimpanzees, is there not?
    Mr. Strandberg. There are many chimpanzees that are not 
currently being used in biomedical research, at least research 
that is funded by the Federal Government.
    Mr. Bilirakis. Mr. Green to inquire.
    Thank you, sir.
    Mr. Green. Thank you, Mr. Chairman.
    Dr. Strandberg, according to the National Research Council 
there are about 1500--is that a pretty good estimate--
chimpanzees housed in our five biomedical institutions?
    Mr. Strandberg. That is correct. It may be closer to 1600 
but that is about what it is.
    Mr. Green. Later in the report it recommends that NIH in 
its ChiMP program assume ownership or lifetime care for about a 
thousand of these?
    Mr. Strandberg. That is in the report. At the time that 
that report was put together, this was the recommendation made 
by the National Research Council. We have, as I mentioned, an 
advisory committee which continues to monitor the ongoing use 
and needs for chimpanzees. They had revised that figure down to 
600, but it is a figure which is constantly under revision and 
being looked at as needs and circumstances change.
    Mr. Green. But using their numbers, and again, even though 
they may not be updated, that would still leave about 500 
chimpanzees in other facilities that are not government-owned, 
or not controlled by the government?
    Mr. Strandberg. That is right. As I pointed out, the 
Federal Government owns only about 600 of the total chimpanzee 
population.
    Mr. Green. And then the report breaks down that 1,000 
chimps in research, the 360 posing a potential health threat, 
the 260, those needed as crisis breeding models and 168--it is 
about 788 total, I guess. Again, these numbers I know--we deal 
with numbers up here, and they change every minute much less 
every day. The NRC's conclusions that thus 212 of the 1,000 
animals may be released to the public sanctuaries or long-term 
care facilities, again, is there a number that is close to that 
or maybe more or less?
    Mr. Strandberg. To give you an example, as you noted, the 
anticipated number of persistently infected animals or exposed 
animals is already considerably higher than was estimated by 
the National Research Council, and this is one of the factors 
that we are taking into consideration. So it is really 
impossible for me to guess how many would be in this unexposed 
population of animals that pose no hazard to the people who 
would be caring for them.
    Mr. Green. I guess it seems like with the legislation, it 
seems like we could work together between permanent chimpanzee 
retirement and the ongoing biomedical research needs and since 
the researchers are the ones who are making those decisions, we 
could have a balance that we could still meet the need and 
still create a retirement facility.
    Mr. Strandberg. As I said, the NIH is very happy to work 
together with the Congress to come up with a solution to a very 
significant problem.
    Mr. Green. Last week the NIH took title to 288 of the 
Coulston chimpanzees, and what was the reason for the taking 
the title back?
    Mr. Strandberg. These animals have, as I mentioned, been 
infected with hepatitis--several types actually--as well as HIV 
in varying numbers. Many of these animals have been used in 
studies by NIH supported investigators, both people from the 
intramural community as well as by grantees. NIH has thus 
acquired a responsibility to these animals, and it was felt 
appropriate for NIH to own them so that we have more control 
over them.
    Mr. Green. When you say ``own them,'' you took title to 
them, but are they still in the facilities?
    Mr. Strandberg. Yes as I mentioned they are still in the 
facilities because frankly there is no other place to put these 
chimpanzees.
    Mr. Green. That answers one of the questions, the concern 
over the controversy over the Coulston Foundation and the 
treatment. The NIH took title based on the infection and not 
based on the treatment of these animals?
    Mr. Strandberg. As I mentioned during my testimony, we have 
been made aware of problems at the Coulston Foundation. They 
are certainly not a secret. We have been working very closely 
with the Department of Agriculture which has legal authority to 
monitor laboratory animal care and with the people of the 
Coulston Foundation to help assure that these animals continue 
to receive appropriate daily care.
    Mr. Green. So those 288, they will still be at the 
Coulston, but they will be used in active research or followup 
research?
    Mr. Strandberg. It is a combination of active research and 
long-term monitoring; the minority are in active research 
protocols.
    Mr. Green. What type of research?
    Mr. Strandberg. This is research related to the development 
of vaccines against hepatitis C as well as long-term monitoring 
of animals that have been infected with HIV or with both 
agents.
    Mr. Green. I guess the last question, Mr. Chairman, I know 
I am almost out of time. What steps are being taken to ensure 
that the 288 chimpanzees now owned by NIH but still in 
possession of Coulston are receiving the care in accordance 
with the Animal Welfare Act.
    Mr. Strandberg. As I say, we are monitoring this very 
closely. We have regular site visits which are paid by NIH 
staff, to the Foundation and also because of the problems that 
have occurred at the Foundation, the Department of Agriculture 
is monitoring them on a very frequent basis as well.
    Mr. Green. How frequently are they monitored?
    Mr. Strandberg. The NIH is monitoring them, I believe, it 
is every month.
    Mr. Green. So there is no NIH personnel actually at the 
Coulston facility?
    Mr. Strandberg. There is no one stationed at the Foundation 
constantly, correct.
    Mr. Green. Will the permanent retirement of these 288 that 
are not--part of that 288 that are not part of the ongoing 
research be an option under NIH's forthcoming request for 
proposals under which a contract for care of the chimps would 
be awarded?
    Mr. Strandberg. As I mentioned, these animals that are 
persistently infected would offer an opportunity to come up 
with mechanisms to cure or to clear viral infections. Hepatitis 
C is widely spread among the human population, is a chronic 
infection, and it is associated with a disease that occurs much 
later in life. If these animals, which already have been 
infected, can provide some guidance as to how to clear the 
infection and thus stop the long-term chronic effects of this 
infection, it would be to the animal's benefit as well as to 
human benefit, and would also make use of any resources that 
rave already been established.
    Mr. Green. I guess what I was trying to do is break down 
the number of that 288, the ones that were active research and 
the ones that maybe would be in a continuing monitoring stage 
compared to their infection.
    Mr. Strandberg. That would have to be ascertained on an 
individual animal basis based on the records of what their 
past----
    Mr. Bilirakis. If the gentleman would yield. You referred 
to the monitoring. Is that monitoring that you have both spoken 
about here research-related?
    Mr. Strandberg. They are monitoring the--the research that 
is being done there is being done under protocols that have 
gone through peer review and are NIH-funded. So the protocol 
itself has been approved. It has standard procedures that are 
being followed. The monitoring that is taking place out there 
now is specifically looking at the welfare of the animals, the 
conditions under which they are housed, making sure that their 
diet----
    Mr. Bilirakis. Not directly research related?
    Mr. Strandberg. That is correct.
    Mr. Green. Thank you.
    Mr. Bilirakis. Mr. Greenwood to inquire.
    Mr. Greenwood. Thank you, Mr. Chairman. Mr. Chairman, I 
would ask unanimous consent to enter into the record an article 
published in The Washington Post on Monday May 15, 2000, the 
title headline, ``Surplus Chimps Stranded in Research 
Controversy.''
    Mr. Bilirakis. Without objection, that will be the case.
    [The information referred to follows:]

         [Monday, May 15, 2000--Special to The Washington Post]

            Surplus Chimps Stranded in Research Controversy
                          By Shannon Brownlee
    Deep in the New Mexico desert, there's a state-of-the-art facility 
at Holloman Air Force Base. It does not house fighter jets, but instead 
serves as home to about 300 chimpanzees.
    The animals make up about half of the chimps owned by the Coulston 
Foundation, the largest primate research laboratory in the world.
    The Alamogordo, N.M., facility has long been embroiled in 
controversy, having been repeatedly accused of mismanaging the care of 
the animals in its custody.
    Since 1995, the Agriculture Department, one of the federal entities 
charged with ensuring the safety and welfare of animals used in 
biomedical research, has investigated and brought charges against 
Coulston's lab on three occasions for violations of the Animal Welfare 
Act, ranging from inadequate veterinary care to negligence resulting in 
the deaths of at least nine chimpanzees. Another investigation is 
underway.
    The controversy came to a head last week, when the National 
Institutes of Health took title to 288 chimpanzees at the facility.
    Given the foundation's record, relieving it of half of its chimps 
might seem like a good idea. But instead of relief, there was 
frustration among many, including animal welfare advocates, federal 
officials and the directors of other primate laboratories.
    That's because, despite the NIH action, the animals remain at the 
facility. And there's nowhere else to send hundreds of other animals 
around the country that are no longer needed for research.
    The NIH has funneled at least $10 million into the Coulston 
Foundation since 1993, despite the charges leveled at Coulston's 
facility by other federal agencies. Some researchers, as well as animal 
advocates, believe that the NIH has been propping up the troubled lab 
because the agency does not want to deal with a larger issue: what to 
do with several hundred chimpanzees that are no longer needed for 
biomedical research.
    ``If these were mice, there wouldn't be a problem,'' says Tom 
Gordon, interim director of the Yerkes Regional Primate Research Center 
at Emory University in Atlanta, one of several facilities that has more 
chimps than it needs.
    The glut of chimps began in 1986, when the NIH and other federal 
agencies launched a breeding program to ensure there would be enough 
animals for research, particularly AIDS studies. By the time the 
agencies realized that chimps were not good models for AIDS, there were 
approximately 1,800 of them scattered in half a dozen U.S. labs. At the 
same time, money for chimp research and the animals' long-term care was 
evaporating. Keeping a chimp in a research lab can cost as much as $1 
million over the animal's 50-year life span.
    The NIH, however, has expressed little interest in retiring any 
chimps permanently, especially to sanctuaries that would be run by 
animal advocates. NIH officials worry they won't have ready access to 
animals should they be needed for research. ``God knows what disease is 
going to pop up next,'' says John Strandberg, director of comparative 
medicine at the National Center for Research Resources, a division of 
NIH that paid for chimpanzee breeding. Yet many animals are infected 
with either HIV, the virus that causes AIDS, hepatitis, or both, making 
them unsuitable for experiments involving other diseases.
    Enter the Coulston Foundation, which by 1995 had acquired 650 
chimpanzees at a time when other laboratories were looking to unload 
them. By then, Coulston had obtained the lease to the $10 million 
facility at Holloman, where more than 100 descendants of the ``space 
chimps'' used in NASA tests in the 1960s were housed.
    The foundation ran into trouble from the start. Three chimps died 
when a heater in their room malfunctioned and pushed the temperature to 
140 degrees. Four years later, a 2-year-old chimp named Echo died 
during an operation performed by inexperienced veterinarians.
    By the time the foundation had agreed to relinquish its animals in 
an agreement with the Agriculture Department last September, the 
Coulston facility had been charged with negligence in the deaths of 
nine chimps and four monkeys. In each case, Coulston agreed to pay 
fines while admitting no wrongdoing. Officials are investigating the 
deaths of more chimps, according to In Defense of Animals, an advocacy 
group.
    Through it all, the NIH has maintained that it had no cause for 
concern. Last week, Strandberg blamed Coulston's troubles on bad public 
relations. ``If you look at USDA concerns, they are looking at wall 
surfaces, and record-keeping,'' he said.
    But internal NIH documents show that the agency has long been aware 
of far more serious problems and ignored them, according to animal 
welfare advocates.
    In February 1988, the Association for Assessment and Accreditation 
of Laboratory Animal Care International (AAALAC) inspected the Coulston 
facility. AAALAC accreditation is one way a lab can demonstrate it is 
caring for animals properly to obtain federal funding. Another is for 
the lab to ensure the animals' welfare through an internal committee 
that reviews all experiments.
    The foundation, which has been chronically short of cash, failed on 
both counts. It was rejected by AAALAC in 1998. In 1999, the Food and 
Drug Administration and then the Agriculture Department found serious 
fault with the foundation's review committee, saying it was simply 
rubber-stamping experiments, including at least one that was likely to 
lead to long-term injury to animals. Problems with the committee, said 
Don McKinney, a Coulston spokesman, were ``corrected immediately.''
    According to In Defense of Animals, NIH funding of Coulston 
violated federal law and U.S. Public Health Service policy. Without 
AAALAC accreditation, or a functioning review committee, In Defense of 
Animals says, federal law states that the NIH director ``shall suspend 
or revoke'' funding. Yet since last year, the NIH has awarded the lab 
at least $2.8 million in ``supplemental awards'' and research 
contracts. In a written statement, a spokesman for the NIH said that 
Coulston can continue receiving funds because ``in each instance [of] 
noncompliance . . . corrective action has been taken.''
    Events came to a head late last month, when animal advocates came 
to Rep. John Edward Porter (R-Ill.), a staunch NIH supporter, with a 
plan to take over half of Coulston's chimps and turn the facility at 
Holloman into a sanctuary. The NIH rushed to take possession of the 
chimps last week.
    The agency does not yet know how it will care for the animals. It 
also does not have a new management team in place, leaving Coulston in 
charge in the interim.
    The NIH move also throws into question the fate of several hundred 
other chimps. In response to recommendations by the National Academy of 
Sciences, the NIH adopted a Chimp Management Plan, which calls for $4.2 
million a year to care for 600 chimps. Strandberg said the 288 animals 
obtained from Coulston will be part of that plan, which several lab 
directors hope will take care of their surplus animals. The Yerkes 
center, for example, needs a home for nearly I 00 chimps. Another NIH 
spokesman said money for the Coulston animals will come from other 
sources.
    On Thursday, the House Commerce subcommittee on health and 
environment will hold a hearing on surplus chimps. Animal advocates, 
including famed primate researcher Jane Goodall, who is scheduled to 
testify, support retiring surplus animals permanently in sanctuaries. 
Some scientists have come to agree. ``Going from crisis to crisis is 
not ideal,'' said Gordon, the Yerkes center director. ``We need a 
national plan.''

    Mr. Greenwood. Dr. Strandberg, according to this article, 
since 1995, the Agriculture Department, one of the Federal 
entities charged with ensuring the safety and welfare of 
animals used in biomedical research, has investigated and 
brought charges against Coulston's lab on three occasions for 
violations of the Welfare Act ranging from inadequate 
veterinarian care to negligence resulting in the deaths of, at 
least, nine chimpanzees. Other investigation is underway. You 
have said in your testimony this morning, the NIH is aware of 
shortcomings at the Coulston Foundation and have worked closely 
with the USDA and the Coulston Foundation to identify, mitigate 
and correct identified problems. I am not clear yet whether NIH 
took title to these chimpanzees because, strictly, because of 
medical protocols or whether because of concerns about whether 
or not they are being treated humanely? Which is it?
    Mr. Strandberg. We took title to the animals for a variety 
of reasons including our ability to make sure that they are, in 
fact, humanely cared for as well as their research potential.
    Mr. Greenwood. Was it your observation that they weren't?
    Mr. Strandberg. No, but we wanted--because of the financial 
instability of the Coulston Foundation, we wanted to provide 
some assurance that this would not affect the well-being of the 
animal.
    Mr. Greenwood. We have paid them about a million dollars in 
Federal money, have we not?
    Mr. Strandberg. We have indeed. And we have done that in a 
way that has been very closely monitored to make sure the 
animals' welfare is being protected.
    Mr. Greenwood. I still am not clear. You said you took them 
for various reasons. One of them is medical protocol. The other 
is to ensure their humane treatment but you are saying you are 
not aware of inhumane treatment of the animals in Coulston's 
facility.
    Mr. Strandberg. We have looked--we have been made aware of 
the USDA's concerns and have worked with them and with the 
Coulston Foundation to make sure that whatever caused these 
does not recur and to----
    Mr. Greenwood. Whatever caused these what? ``these'' refers 
to what?
    Mr. Strandberg. Whatever caused the problems that the 
Department of Agriculture identified.
    Mr. Greenwood. They considered it violations of the Animal 
Welfare Act. It is pretty obvious what their concerns were. You 
are recorded as saying through it all, the NIH has maintained 
that it had no cause for concern last week. Strandberg blamed 
Coulston's troubles on bad public relations. Is that your view?
    Mr. Strandberg. The quotations that are ascribed to me 
there are correct. However, they were taken out of context and 
in the course of the 45-minute interview.
    Mr. Greenwood. I am sympathetic. That happens to me all the 
time. Probably will happen to me before the day is over.
    I also, Mr. Chairman, would like unanimous consent to 
insert into the record a ``New York Times'' article of 
September 14, 1999, entitled ``Foundation Gives Up 300 Research 
Chimps.''
    Mr. Bilirakis. Without objection.
    [The information referred to follows:]

                [September 14, 1999--The New York Times]

                Foundation Agrees to Give Up 300 Chimps
                          By Shannon Brownlee
    The caretaker of the nation's largest colony of research 
chimpanzees has agreed to give away almost half of them in an unusual 
negotiation with the United States Department of Agriculture, one of 
the Federal agencies that monitors the safety and welfare of research 
animals.
    The settlement, announced on Sept. 1, stemmed from charges that 
Frederick Coulston, operator of the Frederick Coulston Foundation, 
violated animal welfare regulations when five chimps died in his care. 
The settlement ordered the foundation to turn over 300 of its 650 
chimps to other centers by January 2002.
    ``This is an unprecedented consent agreement, and a big win for 
these magnificent animals,'' said Michael Dunn, an Under Secretary of 
Agriculture.
    The department does not normally enter into settlements of this 
kind unless it believes the animals are in danger.
    The action is the latest in a series of charges leveled at the 
foundation in Alamogordo, N.M. Since 1996, the department has 
investigated and brought charges in the deaths of at least nine chimps 
at Mr. Coulston's center, and has levied fines for violations ranging 
from keeping the animals in cages too small--no bigger than a public 
bathroom stall--to inadequate veterinary care.
    Through it all, Mr. Coulston has denied any wrongdoing, even as he 
has paid the fines. The accusations have come not only from the 
Department of Agriculture, but also from animal-protection advocates 
and biomedical researchers, who say that Mr. Coulston is a throwback to 
the days when research animals were treated with callous indifference.
    Mr. Coulston has called chimpanzees ``vicious, aggressive animals'' 
and has suggested that ``you can raise them like you do cattle,'' and 
that they could be used as blood donors for humans.
    But chimps are disconcertingly similar to people in many of their 
habits and needs, a fact that has helped place them at the center of 
increasingly explosive political and ethical controversy over what to 
do with the nation's 1,800 research chimpanzees.
    Beginning in the 1980's, the National Institutes of Health and 
other Federal agencies began a breeding program aimed at insuring that 
enough chimpanzees would be available for biomedical research, 
especially for AIDS.
    The program led to a chimp baby boom at time when many researchers 
were concluding that the animals were not good models for AIDS 
research.
    Now, most of those chimps are no longer needed for federally 
financed experiments and money for their long-term care has dried up.
    ``We could always find people who wanted to infect chimps,'' said 
Preston Marx, senior scientist at the Aaron Diamond AIDS Research 
Center in Manhattan and professor of tropical medicine at Tulane 
University Medical Center, who ran a chimpanzee colony in the early 
1990's. ``But not people to take care of them for 45 years.''
    Many researchers, including a panel formed in 1994 by the National 
Research Council, believe the National Institutes of Health should take 
responsibility for the chimps and retire most of them to sanctuaries.
    Dr. Thomas Wolfle, a former director of the National Research 
Council's Institute for Laboratory Animal Research and member of the 
task force, said the National Institutes of Health was ``morally 
responsible'' for the welfare of the animals.
    ``I think they should just bite the bullet and assume lifetime care 
for animals they bred and move some out of active research,'' Dr. 
Wolfle said.
    The agency has shown little interest in the idea. But just how many 
chimps the agency should support and whether any of them should be 
retired from research are matters of dispute. Providing for retirement 
of animals, said Dr. John Strandberg, director of comparative medicine 
at the National Center for Research Resources, is ``not in the plans 
for the moment.''
    Mr. Coulston and his colony of chimps, one of five federally 
financed chimp centers in the United States, has served as a lightning 
rod for the debate over what to do about surplus chimps. In 1993 he 
took over a large colony of primates, including several hundred chimps, 
from New Mexico State University.
    Within weeks, three chimpanzees were found dead, after a heater in 
their room sent the temperature soaring overnight to 140 degrees 
Fahrenheit.
    Mr. Coulston was charged with violating the Animal Welfare Act, the 
law that governs the treatment of research animals, in connection with 
the overheating and other problems at the site.
    In March 1997, Echo, a 2-year-old female chimp, died after being 
operated on by two inexperienced veterinarians. In early 1998, a chimp 
named Holly died from preventable side effects of a drug that was being 
tested at the foundation. Two more chimps died from the same cause in 
June 1998. The most recent death, during a spinal experiment, occurred 
in May. The Agriculture Department, partly as a result of 
investigations by an animal protection advocacy group, In Defense of 
Animals, filed charges in 1997 and then again this year. Mr. Coulston 
agreed to pay fines but did not admit any wrongdoing.
    Despite his troubles, Mr. Coulston had more than doubled the number 
of chimps in his care in the past decade, including more than 100 
chimpanzees from New York University, which gave him the animals amid a 
swirl of controversy in 1997, along with more than $1.75 million for 
their care.
    Last year the Air Force sent him 111 of its chimpanzees, many of 
them descendants of the ``space chimps'' used in the 1960's to test the 
safety of space exploration.
    According to the Department of Agriculture, part of the problem at 
the Coulston Foundation stems from inadequate veterinary care. Fourteen 
veterinarians have left the foundation since 1994, a high turnover 
rate. In the last two years, most of the foundation's veterinarians 
have had only minimal experience with chimps, according to In Defense 
of Animals.
    Don McKinney, communications director of the foundation, said, 
``They have to get their experience somewhere.'' He added, ``The 
reality is, there are not very many primate vets running around.''
    Despite the findings by the Agriculture Department, the National 
Institutes of Health has continued to support the Coulston Foundation 
with approximately $10 million in contracts over the last six years. 
Late last year, Representative Carolyn B. Maloney, Democrat of New 
York, began questioning the agency about its support of the foundation.
    But Dr. Wolfle and others say that without Federal money, Mr. 
Coulston would be unable to care for the chimpanzees.
    Mr. Coulston's troubles highlight the financial straits that many 
primate colonies find themselves in: less and less money to care for 
their chimps.
    The animals have been supported by a combination of Federal money 
and private contracts from drug and medical device companies, which pay 
primate centers to conduct research and to test drugs and devices.
    Several Federal agencies, but mostly the National Institutes of 
Health, have paid to breed more chimps, and to infect many animals with 
H.I.V., the AIDS virus, and hepatitis. Now with the move away from 
using chimpanzees in AIDS research, many centers are scrambling to find 
the minimum $15 a day that it costs to keep each primate.
    Indeed, agricultural officials said worries about Mr. Coulston's 
finances prompted the agency to include a provision in their recent 
agreement allowing auditors access to his financial records.
    In Defense of Animals said the foundation had lost 30 percent of 
its revenue between July 1997 and June 1998. Mr. McKinney of the 
foundation declined to respond.
    The settlement between the foundation and the Agriculture 
Department also stipulates that a full-time consultant be brought in to 
act as a go-between, at Government expense, and insure that the 
foundation complies with the agreements.
    ``It's a last ditch effort to get him to clean up his act,'' Dr. 
Wolfle said.
    The fate of the 1,200 research chimps in other primate centers is 
equally murky.
    In its 1997 report, the National Research Council urged the health 
institutes to set aside $7 million to $10 million for the care of 1,000 
chimpanzees, about 600 of which the panel estimated would be needed for 
research. Part of that money would go toward placing the other 400 
chimpanzees into sanctuaries. The panel also warned the institutes to 
move quickly to avoid the possibility that centers would have to start 
killing chimps because they could no longer care for them.
    In response, the national institutes have started a Chimpanzee 
Management Plan, which by next summer will reduce the number of primate 
centers it supports to two from five.
    The management plan has set aside $4.2 million, enough to care for 
only 600 animals, most of which will continue to serve in research. 
That could leave many of the remaining chimps in the lurch. No one 
knows if there is enough private research money to support those 
chimps. And while animal welfare groups would like to see them put into 
sanctuaries, they do not have the money to do it.

    Mr. Greenwood. Would you describe for us the conditions at 
the Coulston facilities? These chimpanzees, how are they being 
housed? How much space do they have? What are the conditions--
what kind of enclosures are they in? How much time do they get 
to spend out of those enclosures?
    Mr. Strandberg. There is a range of types of facilities at 
the Coulston Foundation. There are two major sites, one of 
which is on the Holloman Air Force base. The other--and this 
houses probably two-thirds--can house about two-thirds of their 
population. The other is at a facility called the Lavelle Road 
facility, which is owned by the Foundation. The facilities at 
the Air Force base were built within the past decade, I 
believe, or shortly before that on funds appropriated for New 
Mexico State University to put together a chimpanzee housing 
facility. It has extensive indoor/outdoor housing with cages 
that will house family groups as well as individuals. It also 
has an extensive nursery facility. The Lavelle Road facility is 
one that has a variety of animal housing areas. I would say 
almost all of them, if not all of them, have indoor outdoor 
access, and it has group housing facilities for animals that 
are compatible with one another.
    Mr. Greenwood. You, in your testimony, also made reference 
to the fact that the NIH plans to issue a request for proposals 
for the operation and maintenance of a long-term care facility 
for these animals. An award will be made to the most highly 
qualified applicant with expertise et cetera. We expect to 
award a new contract at the end of the summer when the 
cooperative agreement with the Coulston Foundation expires. You 
are familiar with it because I think you have heard not only 
today's testimony, Dr. Goodall, but you follow this issue with 
the vision that Dr. Goodall and others have of what a facility 
looks like. Is that your vision of what you intend to seek 
through an RFP?
    Mr. Strandberg. What we intend to seek with the RFP is to 
address the concerns of taking care of the infected animals 
that are at the facility at this point with a highly trained, 
highly competent and well respected animal care staff. The 
facilities, as I mentioned, have both indoor and outdoor 
enclosures which are highly enriched in many instances. There 
are some that are less enriched than others. The goal is to 
increase enriched housing. There is--it is New Mexico. There is 
not a lot of grass and there are not a lot of trees, but still 
the environment is an interesting and intellectually 
challenging one and there are ways of handling chimpanzees to 
improve their daily experiences.
    Mr. Greenwood. You would like to live there, right?
    Mr. Strandberg. I am from Minnesota----
    Mr. Greenwood. What do you think the goal is? What is the 
difference between what Dr. Goodall--you described what you 
want to do with an RFP but what do you think it is that she 
would consider are the shortcomings of the facility that you 
will seek with this RFP?
    Mr. Strandberg. I would hope in the final analysis she 
would not find too much problem with what we seek.
    Mr. Green. Do you think we can--of course, one of the 
differences is, is that in my proposal, 71 of us, I think, have 
cosponsored it, we use private dollars as well as public 
dollars. You will be using exclusively public dollars. Do you 
believe we can work this legislation to a point where we can 
get the NIH to support it to help set up this kind of a 
sanctuary program where we use private resources as well?
    Mr. Strandberg. As I said, I would be very pleased--we 
would all be very pleased to work very closely to come up with 
a solution.
    Mr. Bilirakis. The gentleman's time has expired. This might 
be a particularly good time to break, since Dr. Strandberg just 
made his opening statement. We have a couple of votes on the 
floor, so, Dr. Strandberg, thank you so much for being here. 
Obviously your written statement is a part of the record. As 
soon as we are able to return, we will go into the last panel. 
Thank you very much. I can't really estimate the time. Half-
hour, 45 minutes.
    [Brief recess.]
    Mr. Bilirakis. We can get started. I was waiting for Mr. 
Greenwood because he wanted to introduce Ms. Nelson, and 
possibly when he gets her, we will give him his day in the sun. 
Let's proceed with panel 3. Dr. Alfred Prince, head of 
virology, Lindsley F. Kimball research institute, New York 
blood center. And Ms. Tina Nelson, executive director of the 
American antivivisection society out of Jenkintown, 
Pennsylvania, which I believe is Mr. Greenwood's district.
    Ms. Nelson. Correct.
    Mr. Bilirakis. Thank you both for being here. Your written 
statement is a part of the record and we will turn this at 5 
minutes. Again, I want to apologize to you. Some of you--I 
don't think either of one of you--but some of our witnesses 
have testified here before and understand the way it is here. 
It is wild. We have votes on the floor and we have to run and 
interrupt everything. But Dr. Prince, why don't we start off 
with you, sir. Please proceed.

 STATEMENTS OF ALFRED M. PRINCE, HEAD OF VIROLOGY, LINDSLEY F. 
  KIMBALL RESEARCH INSTITUTE, NEW YORK BLOOD CENTER; AND TINA 
  NELSON, EXECUTIVE DIRECTOR OF THE AMERICAN ANTIVIVISECTION 
                            SOCIETY

    Mr. Prince. Mr. Chairman, members of the committee, I can't 
resist first saying how honored I feel being able to testify on 
the same panel that Jane Goodall has testified on. Jane is the 
first human being to have understood chimps. Without her work 
and her understanding, we wouldn't be here talking today 
without any question.
    I am head of the laboratory of virology at the Kimball 
Institute of the New York Blood Center. In addition, I also 
have, for the past 25 years, directed a chimpanzee research 
facility in Liberia, West Africa, one of the most peaceful 
parts of the world. During this time, I started as a 
virologist, but as the work went on, I became more and more a 
primatologist also, and I have learned from close experience of 
the mere human nature of these endangered animals and that it 
was absolutely essential for us in research that they be 
handled in a humane manner with respect for their social and 
physical needs. Thus whenever possible, even during research 
protocols, these animals need to be held in large social 
groupings with a maximum space and environmental enrichment.
    My research corners the development of vaccines and 
immunotherapies for hepatitis B and C viruses and is currently 
funded by the National Institutes of Health. Chimpanzees are 
essential unfortunately for progress in these fields of 
research because as said before at this meeting, they are 
almost identical to us biologically, and the viruses of great 
concern to us, hepatitis B, hepatitis C, and HIV do not 
replicate in other primates even. They don't replicate in 
monkeys, so we have to use chimpanzees for certain experiments. 
The studies for which these animals are involved usually have a 
duration of 1 or 2 years. After that time the animals must be 
resocialized into large groups and retired for the remainder of 
their 60- to 70-year life span.
    In our laboratory in West Africa, we have used large 
islands in a nearby river for this purpose. The resocialization 
process is difficult and time consuming, thus once it is 
accomplished, we do not bring adult animals back into a 
research setting.
    I believe it will be necessary for the research community 
to maintain a supply of chimpanzees for essential research 
needs and feel that the amount proposed for NIH to keep in the 
National Research Council report is quite sufficient to 
maintain a healthy surplus and breeding colony for future 
emergencies.
    In addition, any chimpanzees kept by the NIH as surplus and 
for breeding I strongly believe should be maintained in a 
sanctuary setting for many of the same reasons highlighted in 
the legislation before this committee. Sanctuaries are cheaper, 
healthier and better for the breeding and the interests of the 
chimpanzees, since chimpanzees confined in most medical 
research facilities are not, to my mind, a suitable environment 
for breeding or for long-term holding.
    In conclusion, Mr. Chairman, as a scientist, I strongly 
support H.R. 3514 and the necessity for permanently retiring 
all chimpanzees not needed for essential research to 
sanctuaries where they can live enriched and social lives. 
However, I would like to point out that I believe the present 
bill, valuable though it is, grossly underestimates the need. 
As I understand it, it addresses the need for somewhere around 
200 chimpanzees. As we have heard by presentations given today, 
a much larger number of chimpanzees will have to go into 
sanctuaries and it could be as much as 1,800. 200 is just not 
sufficient. But it is much, much better than zero.
    Thank you very much.
    [The prepared statement of Alfred M. Prince follows:]
 Prepared Statement of Alfred M. Prince, Head of Virology, Lindsley F. 
           Kimball Research Institute, New York Blood Center
    I am the Head of the Laboratory of Virology of the Lindsley F. 
Kimball Research Institute of the New York Blood Center. In addition, I 
have also directed VILAB II, a chimpanzee research, and retirement 
facility in Liberia, West Africa for the past 25 years. During this 
time I have become convinced that the near human nature of these 
endangered animals requires that they be handled in a humane manner 
with respect for their social and physical needs. Thus, whenever 
possible these animals need to be held in large social groupings with a 
maximum space and environmental enrichment.
    My research concerns the development of vaccines and 
immunotherapies for hepatitis B and C viruses, and is currently funded 
by the National Institutes of Health. Chimpanzees are essential for 
progress in this field of research. However, the studies in which these 
animals are involved usually have a duration of only 1-2 years. After 
that time the animals must be resocialized into large groups and 
retired for the remainder of their 60-70 year life span. In our 
laboratory in West Africa we have used large islands in a nearby river 
for this purpose. The resocialization process is difficult and time 
consuming, thus once this is accomplished we do not bring animals back 
into a research setting.
    I believe that it will be necessary for the research community to 
maintain a supply of chimpanzees for essential research needs and feel 
that the number of chimpanzees proposed to NIH in the NRC report is 
sufficient to maintain a healthy research and breeding colony for 
future emergencies. In addition, chimpanzees identified as surplus 
should also be maintained in a sanctuary setting for the same reasons 
highlighted in the legislation before this committee. Sanctuaries are 
cheaper and healthier and better.
    In conclusion, Mr. Chairman, as a researcher I strongly support 
H.R. 3514 and the necessity of permanently retiring all chimpanzees not 
needed for this resource to sanctuaries where they can live enriched 
and social lives.

    Mr. Bilirakis. Mr. Greenwood is now recognized to welcome 
Ms. Nelson.
    Mr. Greenwood. Thank you. I apologize for being late for a 
moment there. As I said earlier, Mr. Chairman, it was 
impossible for me not to do whatever Jane Goodall asked me to, 
but it was a two-prong attack. They sent Tina Nelson to my 
home, who is a neighbor to my home office. Tina Nelson is 
currently the executive director of the American 
Antivivisection Society and the International Animal Protection 
Organization, which focuses on the issues related to the use of 
animals in laboratories and education.
    Ms. Nelson also serves as a program consultant for the 
Alternatives Research and Development Foundation, one of the 
principal organizations in the United States supporting the 
development and use of humane alternatives. A significant 
portion of Ms. Nelson's time is spent working with the 
scientific community to implement improvements in the treatment 
of animals. She holds a bachelor of science degree in biology 
from Delaware Valley College of Science and Agriculture, and a 
master's of art degree in environmental science from Beaver 
College. She is currently enrolled in a doctoral program in 
political science at Temple University. Welcome.

                    STATEMENT OF TINA NELSON

    Ms. Nelson. Thank you. I am very happy to be here and 
excited that we have movement on this and seem to have reached 
a consensus.
    Mr. Bilirakis. Is there any significance to moving from 
those first two degrees to political science?
    Ms. Nelson. Maybe.
    Thank you for providing the American Antivivisection 
Society the opportunity today to testify on the ChiMP Act. As 
Congressman Greenwood said, I am Tina Nelson, executive 
director of the American Antivivisection Society and I am also 
here today representing the National Chimpanzee Sanctuary Task 
Force, comprised of four additional national animal protection 
organizations: The American Society for the Prevention of 
Cruelty to Animals, the National Antivivisection Society, 
Society for Animal Protective Legislation, and the Humane 
Society of the United States. Collectively, these organizations 
represent approximately 8 million constituents.
    I would like to thank Congressman Greenwood for introducing 
this bill and for his commitment and support to solving a 
serious problem with positive action. I would also like to 
thank you, Mr. Chairman, as well as several other members of 
the committee for supporting and cosponsoring this legislation.
    This important issue has provided a unique opportunity for 
the animal protection community to work with the research 
community in creating a solution that benefits scientists, 
government, the U.S. taxpayer, and chimpanzees. Many in the 
animal protection community have received requests to assist in 
the retirement of chimpanzees. For example, the recent Air 
Force divestiture of its chimpanzee colony and the Coulston 
Foundation. The animal protection community cannot continue to 
shoulder the burden of this problem, a problem which was 
created by our government.
    Mr. Chairman, the bill under consideration today is a 
viable solution. The bill would authorize a national system of 
sanctuaries to permanently retire chimpanzees no longer needed 
or suitable for research and at the same time be a cost 
effective solution to a serious problem facing the Federal 
Government. On behalf of AAVS, the task force and the 106 
undersigned members of the scientific academic and zoological 
communities, I wish to state our strong support for the ChiMP 
Act. I would like to start by elaborating on some points that 
Dr. Goodall raised in her testimony.
    Currently there are approximately 1500 chimpanzees housed 
in biomedical research facilities in the United States. Many of 
these animals are not involved in any research protocols, but 
are warehoused in these facilities. In captivity, chimpanzees 
can live up to 60 years. Thus, this country is faced with an 
increasing financial and logistical problem of caring for these 
aging chimpanzees. As we have already heard, in 1994, NIH 
commissioned the National Research Council to study this issue 
and develop recommendations for the long-term care of 
chimpanzees in research. The NRC's panel was composed of 
experts from the biomedical research community and from other 
areas of expertise.
    The panel met for nearly 3 years and issued their report in 
1997. After defining the nature of the problem, the NRC made 
several critical recommendations. One, sanctuaries are an 
appropriate solution. Two, there should be a breeding 
moratorium, and three, euthanasia is not an appropriate 
management solution.
    On November 22, 1999, Congressman Jim Greenwood introduced 
the ChiMP Act. As of today, the Act has 73 bipartisan 
cosponsors, including many members of this committee and we 
expect campaign legislation in the Senate to be introduced 
shortly. Mr. Chairman, there are several provisions in the bill 
I would like to highlight. First, no chimpanzee will be retired 
unless the entity holding title to the chimpanzee decides to 
retire the animal. This leaves the decision up to the 
scientific community. At that point when the decision is made, 
retirement must be permanent. Second, the bill allows the 
scientific community access to data obtained in the course of 
normal veterinarian care as well as necropsy reports.
    Contrary to NIH's concerns voiced today by Dr. Strandberg 
under the ChiMP Act, retired chimpanzees would, in fact, remain 
available for study and monitoring. Third, I wish to emphasize 
the cost-effectiveness of this solution. Sanctuaries offer 
considerable savings compared to the cost of housing 
chimpanzees in laboratories. Ethically, it is also the right 
thing to do. The ChiMP Act would establish a nonprofit entity 
with a board of directors having the necessary expertise to 
ensure the high standards of care for chimpanzees in captivity.
    Among others, the board would consist of scientists 
specializing in infectious disease. HHS has given the authority 
to develop enabling regulations. Finally, Mr. Chairman, this 
legislation includes a public private partnership for funding 
the sanctuaries, AVS and the task force member organizations 
have already donated considerable funds to sanctuaries housing 
chimpanzees. Our members have given generously and will 
continue to do so as long as they are assured retirement is 
permanent. Congressman Greenwood's ChiMP Act provides a win/win 
solution.
    In closing, Mr. Chairman, we believe there are hundreds of 
chimpanzees that could be retired to sanctuaries if only they 
were available. The American public has shown their respect and 
concern for chimpanzees and would find it unconscionable that 
their taxpayers dollars are supporting NIH's current management 
plan of warehousing surplus chimpanzees. It is time to embrace 
a more responsible, a more humane alternative.
    On behalf of AAVS, the task force, the American public, I 
urge you to enact this legislation this year. Thank you, Mr. 
Chairman, Congressman Greenwood, and members of the committee 
for this opportunity to convey to you the urgency of the 
situation, the merits of the ChiMP Act as a humane and cost-
effective solution. We stand ready and able to work with you. 
And as Congressman Greenwood said earlier, it is a no-brainer.
    [The prepared statement of Tina Nelson follows:]
 Prepared Statement of Tina Nelson, Executive Director, American Anti-
                          Vivisection Society
    Good morning, Mr. Chairman and Members of the Committee. Thank you 
for providing the American Anti-Vivisection Society the opportunity to 
testify on House Bill 3514, the Chimpanzee Health Improvement, 
Maintenance and Protection Act (CHIMP).
    I am Tina Nelson, Executive Director of the American Anti-
Vivisection Society, an international animal protection organization 
which was founded in Philadelphia, PA in 1883. We are the oldest animal 
protection organization specifically working on laboratory animal 
issues in the United States and our membership spans the globe.
    I am also here today representing the National Chimpanzee Sanctuary 
Task Force that comprises four additional national animal protection 
organizations. Those are: the American Society for the Prevention of 
Cruelty to Animals (ASPCA), the National Anti-Vivisection Society 
(NAVS), Society for Animal Protective Legislation (SAPL), and the 
Humane Society of the United States (HSUS). Collectively these 
organizations represent a membership of 8 million constituents.
    I would like to thank Congressman Greenwood for introducing this 
bill and for his commitment and support to solving a serious problem 
with positive action--building community consensus among a diverse 
group of people who do not often work together. I would also like to 
thank you, Mr. Chairman, as well as several other Members of the 
Committee, for supporting and cosponsoring this important legislation.
    This important issue has provided a unique opportunity for the 
animal protection community to work with the research community in 
creating a solution that benefits scientists, government, chimpanzees 
and the U.S. taxpayer. Many in the animal protection community have 
received numerous requests over the past several years to assist 
different entities find a place for chimpanzees no longer wanted by the 
research community, for example, Laboratory for Experimental Medicine 
and Surgery in Primates (LEMSIP), Buckshire Corp., the recent Air Force 
divestiture of its chimpanzee colony, and the Coulston Foundation. The 
animal protection community cannot possibly shoulder the entire burden. 
Therefore, we have been working with others to develop a common sense 
solution.
    Mr. Chairman, the bill under consideration today is that solution. 
The bill would authorize a national system of sanctuaries to 
permanently retire chimpanzees no longer needed or suitable for 
research and at the same time be a cost-effective solution to a serious 
problem facing the federal government. On behalf of the members and 
constituents of the American Anti-Vivisection Society, The National 
Chimpanzee Sanctuary Task Force, and the 106 undersigned members of the 
scientific, academic and zoological communities, I wish to state our 
strong support for the Chimpanzee Health Improvement, Maintenance and 
Protection Act.
    Let me start by providing the Committee with background on the 
surplus chimpanzee problem.
    Because of the similarities between chimpanzees and humans, 
chimpanzees have been used since the 1950's as models for 
physiological, biomedical and behavioral research. After the 
importation of wild chimpanzees was halted in 1975, the National 
Institutes of Health (NIH) initiated a program, the Chimpanzee Breeding 
and Research Program, to breed captive chimpanzees for biomedical 
research, specifically for AIDS research. However, the chimpanzee 
proved to be a poor model for AIDS research. For this reason and 
others, we are now faced with a ``surplus'' of chimpanzees.
    Currently, there are approximately 1,500 chimpanzees housed in six 
biomedical research facilities in the United States. Many of these 
animals are not involved in any research protocols but are warehoused 
in these facilities, some living in isolation in small cages. In 
captivity, many chimpanzees can live up to 60 years. Thus, this country 
is faced with the increasing financial and logistical problems of 
caring for these aging chimpanzees.
    Over 6 years ago, this problem became significant enough to command 
the attention of NIH which in 1994 commissioned the National Research 
Council (NRC) to study the and develop recommendations for the long 
term care of chimpanzees in research. The NRC's panel was composed of 
diverse representatives from the biomedical research community and 
other interested parties. The panel met for nearly three years, held 
multiple public meetings, and produced their report in 1997. The NRC 
report, Chimpanzees in Research: Strategies for Their Ethical Care, 
Management and Use, found that if
        . . . the current lack of long-range planning and coordination 
        continues, the combination of excess captive chimpanzees in the 
        US biomedical population and lack of facilities and resources 
        to care for increasing numbers adequately will soon become an 
        insurmountable problem of enormous complexity, cost, and 
        ethical concern. (p.6)
    After defining the nature of the problem, the NRC made several 
critical recommendations. The NRC report recommended the concept of 
sanctuaries and recommendation 4 states specifically, ``the concept of 
sanctuaries capable of providing for the long-term care and well-being 
of chimpanzees that are no longer needed for research and breeding 
should become an integral component of the strategic plan to achieve 
the best and most cost-effective solutions to the current dilemma.'' 
The NRC Report also recommends the imposition of a breeding moratorium 
and opposes euthanasia of chimpanzees as a management solution.
    On November 22, 1999, Congressman James Greenwood introduced the 
CHIMP bill that would establish a sanctuary system--facilities where 
hundreds of surplus chimpanzees will live in social groups and in 
natural settings and will be permanently retired from biomedical 
research. The bill mandates funding from both the private and public 
sectors.
    The CHIMP bill has attracted strong bipartisan support in the House 
with 71 cosponsors, including many Members of this Committee. We expect 
companion legislation in the Senate to be introduced shortly and to 
also receive bipartisan support.
    Mr. Chairman, there are several additional provisions in the bill I 
would like to highlight. First, no chimpanzee will be retired unless 
the entity holding title to the chimpanzee decides to retire the 
animal. Then and only then, will the chimpanzee go to a sanctuary. At 
that point, retirement must be permanent. Sanctuaries by definition 
must be a safe haven for the chimpanzees where they can be 
rehabilitated and resocialized where possible.
    Second, the bill allows the scientific community access to data 
obtained in the course of normal veterinary care as well as necropsy 
reports. By providing this data, the chimpanzees remain of value to 
research while living humanely in cost-effective sanctuaries. This 
concept is consistent with the NRC report's recommendation of rejecting 
euthanasia as a management solution. Under the CHIMP bill, euthanasia 
would only be acceptable in cases in which it was in the best interest 
of the chimpanzee.
    I wish to emphasize the cost effectiveness of this solution. By 
creating sanctuaries for chimpanzees to live in more social situations, 
sanctuaries obtain economies of scale and offer considerable savings 
compared to the cost of housing chimpanzees in laboratories. Ethically, 
it is the right thing to do.
    The CHIMP bill specifies the establishment of a nonprofit entity 
with a board of directors composed of representatives of the research, 
animal protection, and zoological communities with the necessary 
expertise to ensure high standards for the care and management of 
chimpanzees in captivity. To protect the government's interests, HHS is 
given the authority to develop enabling regulations.
    Finally, Mr. Chairman, this legislation includes a public/private 
partnership for funding the sanctuaries with the private sector raising 
matching funds for the care of the chimpanzees. AAVS and the Task Force 
member organizations have already donated considerable funds to 
sanctuaries housing chimpanzees retired from the federal space program. 
Our members have given generously and will continue to do so as long as 
they are assured that retirement is permanent. This approach provides a 
responsible, cost-effective, and humane alternative to current 
government policy of expensive laboratory warehousing of chimpanzees. 
It also holds the federal government accountable for a problem created 
under its program. Congressman Greenwood's CHIMP Act provides a win-win 
solution.
    In closing, Mr. Chairman, we believe there are hundreds of 
chimpanzees that could be retired to sanctuaries today if they were 
available. It is imperative that action be swift with regard to this 
ever increasing problem. On behalf of the American Anti-Vivisection 
Society and the National Chimpanzee Sanctuary Task Force, I urge you to 
enact this legislation this year.
    Thank you, Mr. Chairman, Congressman Greenwood and members of the 
Committee for this opportunity to convey to you the urgency of this 
situation and the merits of the CHIMP Act as a humane and cost-
effective solution.

    Mr. Bilirakis. We have all used that term, and found that 
others disagree sometimes. Well, the concern, of course, is for 
the chimpanzees and their well-being after they have been 
basically used, while ensuring that we do not interrupt ongoing 
research studies. In the process of discussing this with Dr. 
Goodall and with Dr. Strandberg, my feeling is that somehow 
these two concerns can be worked out rather than either one 
extreme or the other. It seems to me that we can find a middle 
ground. Would you agree, Ms. Nelson?
    Ms. Nelson. Yes.
    Mr. Bilirakis. Dr. Prince you would agree?
    Mr. Prince. I think the differences are getting smaller and 
smaller.
    Mr. Bilirakis. That is good to hear.
    I have never seen a sanctuary. I think they call it the 
``chimp farm'' in my congressional district--it is actually 
pretty close to where I live. And we have always enjoyed it. 
The chimps there sometimes sit on the walls and wave to our 
cars as they zoom on by, and I know that the owners of the farm 
have taken the chimps to various schools and talking to the 
students and doing an awful lot of good things, but the chimps 
are kept in cages. We are contemplating, are we not, any 
sanctuary including cages, or are we?
    Ms. Nelson. No.
    Mr. Bilirakis. We are not contemplating that?
    Ms. Nelson. Well, there are certain standards that are 
being drafted.
    Mr. Bilirakis. But cages of different sizes; isn't that 
right?
    Ms. Nelson. Well, large areas is my understanding, large 
areas where they can live in social groups.
    Mr. Bilirakis. But they would be caged, but it might be an 
area as large as this room; is that right? I am trying to get a 
picture in my mind.
    Ms. Nelson. I believe the picture is to have several acres 
of area and how the enclosure actually will be constructed, I 
am not sure.
    Mr. Bilirakis. They would be enclosed is what I am saying.
    Ms. Nelson. They would be enclosed in very large areas.
    Mr. Bilirakis. In discussing this with Mr. Greenwood at 
some length, I brought up the point this particular chimp farm 
that I mentioned which has been, I guess, closed down. I know 
it was closed down a while back. I am not sure if the situation 
has changed there by the Department of Agriculture because it 
was considered to be unfit and I don't disagree with that. 
However, it seems that there are an awful lot of facilities 
like that around the country and should we, not in conflict 
with what Mr. Greenwood is trying to do, but considering Dr. 
Prince, you made a comment about the large number of chimps 
that need to go into sanctuaries, should we take into 
consideration the fact that these facilities are located around 
the country, and possibly use some of our resources to 
refurbish those to the point where they can meet standards and 
serve as sanctuaries in addition to the contemplation of one or 
two large sanctuaries that may be central locations in the 
country?
    Ms. Nelson. I believe under the bill, they could submit a 
proposal.
    Mr. Bilirakis. They can do that now, as I understand it, 
but I guess the process is a very difficult one.
    Mr. Prince. I think it is a very complicated question 
because many of these facilities are for profit, private zoos, 
and many of them have really inadequate facilities that 
shouldn't be supported but some may be fine. I think it has to 
be an individual----
    Mr. Bilirakis. There have to be standards, there has to be 
oversight, things of that nature. But that is a doable thing, 
isn't it, and it would help, would it not?
    Ms. Nelson. Yes. May I ask you? Are chimpanzees still 
there?
    Mr. Bilirakis. Yes. They are just closed to the public. In 
other words, the past use of them is basically closed to them, 
but they are still there, right?
    Mr. Green.
    Mr. Green. Thank you, Mr. Chairman. To follow up on in the 
Houston area, we don't have what I consider the place for some 
type of facility. Doctor, you mentioned that at your laboratory 
in West Africa, you actually use large islands in a nearby 
river for that purpose. When you say ``large islands,'' is that 
to say putting an enclosure? Obviously, the chimpanzees are 
then on that island and they can create their socialization.
    Mr. Prince. They have to be resocialized before they go on 
the island, otherwise mayhem would ensue, but the islands are 
10- to 30-acre environments. Chimps don't swim and therefore 
one doesn't have to build walls and they are covered with 
tropical rain forest and chimps are quite happy living in that 
environment.
    Mr. Green. When you envision--and I haven't talked to 
Congressman Greenwood about it--but do you envision these 
facilities being in the United States or maybe using some fate 
like you have obviously in West Africa that we would create a 
sanctuary?
    Mr. Prince. We are creating a sanctuary in West Africa, but 
it would be totally impractical to bring animals from outside 
of Africa into that, and it is not our intent. It is our intent 
to provide a good life for the animals that are in our setting.
    Mr. Green. You would assume the legislation would create 
these sanctuaries within the United States?
    Mr. Prince. Yes.
    Mr. Green. And maybe the chairman's facility in Florida by 
coming up to standards could be a facility.
    Mr. Prince. Africa, as you know, has some political 
instability which does not support such activities too well.
    Mr. Green. We hear about it every day. I guess I was 
thinking about it and I have told my staff and the chairman, we 
had a situation in South Texas, and it wasn't with chimpanzees, 
but it was Japanese snow monkeys, that the facility south of 
San Antonio, which is not what I would consider user friendly 
except a native born animal there, but they lost their funding 
and then they really abandoned them and they have escaped and 
living, and I don't know how they survive in the scrub oak in 
Mesquite in south Texas, but some are and that would be my fear 
that, you know, obviously we need to have a facility that is 
funded and not just on an annual basis, but has some surety 
that they are going to be there both for the animal's 
protection but also, you know, so that there is not a problem 
within the region, although again, from what I understand, the 
snow monkeys are adapting very well to the dry climate of south 
Texas.
    Ms. Nelson. I have actually been to that sanctuary. It is 
great.
    Mr. Green. Is it really?
    Ms. Nelson. Yes.
    Mr. Green. My only experience with it, and I tell this 
story is my son and I have hunted in south Texas and he came 
back 1 day and he was I guess his first year in college, he 
tried to explain to us. He said dad, I think I saw a monkey in 
the tree. And typical hunting experience I said, don't tell 
these other guys because you will not live it down the next few 
days. Low and behold, a month later there was an article in the 
Houston paper that talked about the number of animals that 
escaped and are now in ranches around south Texas. I am glad to 
hear that because that bothered me that facility they escaped. 
I thought they lost their funding and just abandoned it.
    Ms. Nelson. No, they moved to Dilley. And it is up and 
running. It is really a great sanctuary. They have a lot of 
acres.
    Mr. Green. And they are adapting?
    Ms. Nelson. Yes. They seem fine. I have been there twice.
    Mr. Green. Glad to hear it. If you have any information, I 
would appreciate it. Of course we don't have monkeys in Texas, 
the ones that were native born.
    Mr. Chairman, I appreciate it. I have one other question 
concerning the permanent retirement, and I know the concern 
from NIH, and I don't think there was a question about the 
permanent retirement, but the continued ability to monitor. 
Does that seem to be a problem? The chairman said it seems like 
we are close enough we could come to some agreement on it.
    Ms. Nelson. The bill provides for that.
    Mr. Green. But it needs to be once a chimpanzee is retired, 
they don't need to be able to be used again?
    Ms. Nelson. Right.
    Mr. Green. I don't think there was any opposition from NIH 
to that except----
    Ms. Nelson. There is, I believe.
    Mr. Greenwood. There is. They don't like it.
    Ms. Nelson. Maybe we can convince them to like it.
    Mr. Green. Thank you, Mr. Chairman. Thank you for 
introducing the bill.
    Mr. Greenwood. Thank you. And if you are worried, we are 
not going to move them into your district and register them 
Republican.
    Mr. Green. Mr. Chairman, I could make some comments on 
that.
    Mr. Greenwood. They would have more sense to register 
Republican in your district.
    Two questions. One for each of the witnesses. And then 
let's go to Dr. Prince first on this whole question. Biggest 
stumbling block is whether or not these chimps will be able to 
be called back for research purposes. From what I gathered from 
what the NIH has said formally today as well as other 
discussions I have been involved in, my sense is that No. 1, 
you take the number of chimpanzees that are ready for 
retirement now, and at the speed at which we can move things 
through Congress and raise the money privately and publicly and 
fund the creation of the first of these sanctuaries and move 
the first most likely population out, for the foreseeable 
future, it is my estimation that is going to leave a continued 
surplus available for research.
    So in terms of numbers, my assumption is that we are a very 
long way from getting to the point where that would be an 
issue, and in any instance, it is the research community that 
decides when to relinquish them. Now, is there an issue, 
putting the numbers aside, do we have an issue here where we 
have a specific chimpanzee that might be selected for 
retirement and then something happens in terms of the 
technology of research? There is a breakthrough of one kind or 
another and a research says, you know, I think I can really 
learn something about XY disease if I bring that specific 
chimpanzee, or the 12 that I used for my earlier experiments, 
and brought them back and did some kind of invasive research. 
Is that, in your view, a very likely scenario? Obviously it is 
a hypothetical scenario.
    Mr. Prince. It could happen, but it doesn't have to happen. 
Basically, there are not that many generic groupings here. 
There are HIV-infected chimps. There are HIV-recovered. There 
are HPV-infected and recovered, and HCV-recovered. It is my 
view that NIH and its advisors should decide on what is a 
reasonable resource for them to have that would take into 
account the possibility of unanticipated needs in the future 
and so on, and that would be a number. That number could be 
600. It could be 1,000, I don't know. I don't think it has 
actually been very carefully assessed. I think it needs more 
careful study. And then within that number it should be 
sufficient for lookbacks at animals that were experimented on 5 
years ago and so on and anything that is reasonable and those 
that are above that number should be out of the system and in 
retirement. That is my view.
    Mr. Greenwood. I suppose that cuts both ways because to the 
extent that you make it a strictly one-way street, you do 
minimize the number of chimpanzees that might be kept back from 
the sanctuary for that very reason. I think about that 
sometimes that----
    Mr. Prince. I really think that the NIH should have its own 
sanctuary system for breeding, for maintenance in case of 
emergencies. It is a different sanctuary system from the one 
that this bill addresses.
    Mr. Greenwood. That's a perfect segue for my question for 
Ms. Nelson. If you noticed in the NIH's testimony today, they 
talked about their intentions to put out a request for proposal 
to actually build different, better, more housing for 
chimpanzees, and I tried to press the witness on what that 
would be like. I didn't completely succeed, except we learned 
that he didn't want to live there. Can you go into as someone 
who spends her whole life interested in the humane treatment of 
animals, what are the worst parts about our current system and 
what are your concerns that NIH would fail to do going out 
without the aid of this legislation, just going out and 
contracting with someone to build housing?
    Ms. Nelson. One of my major concerns is that retirement 
would not be permanent if NIH was in control. I don't think 
that the facilities would be anything that we envision. They 
wouldn't be sanctuaries. The nature of this bill is that it is 
a safe place for these chimpanzees to retire and not have any 
invasive research done. And that is just not NIH's plan.
    Mr. Greenwood. And I think that is an important point to 
make. I think some of the members were trying to have, in 
working on this issue, try to envision what a sanctuary looks 
like and my understanding is that in the ideal situation, you 
would have a very large natural enclosure filled with natural 
habitat. You probably would have walls that would be fairly 
high and unscalable, and then you would have some distance 
between trees and those walls so you couldn't have a chimpanzee 
leap, so therefore you would have a very natural setting. The 
only exception to that being there is a limit to the range and 
there would probably be some kind of shelter and then some kind 
of facilities in there to deal with the health needs, newborns 
if there are those, and those kinds of things. That is very 
different than a strictly artificial setting. I think that is 
what we are trying to create here, and I am not convinced that 
going to the lowest bidder is going to get you there. But the 
other thing that is important seems to me it is easy to forget 
that it is inhumane, and it is cruel to allow a chimpanzee to 
go out and form bonds and socialize and have the relief of a 
certain number of years or time in that kind of a setting, and 
then come for him and say, you know, it is time for him to go 
back into a cage in a laboratory that that is, in itself, cruel 
and unusual punishment.
    Ms. Nelson. And I can comment on this personally because I 
had an experience with a chimpanzee when I worked for the 
Humane Society of the United States years ago, and there was a 
chimpanzee that was held in a cistern-type area underground at 
a bar and he was entertainment. He had a small caged area where 
he could come up. I eventually got down under there to see him 
and took the chimp away with a search warrant. It was a long, 
involved case, but one thing that sticks in my mind were his 
eyes. It was like staring into a blank nothing, I mean, just 
right through him. We had primatologists look at him, and one 
of the comments that Jane Goodall made that I will never forget 
is it is like locking a 16-year-old human being in a closet. 
Housing chimps alone in single cages, that was a different 
situation from a laboratory but that quote sticks in my mind, 
and that is exactly what he looked like.
    Mr. Greenwood. One of the great things I learned from Dr. 
Goodall is that there is a tendency to ascribe the expressions 
on the face of chimpanzees and interpret them 
anthropomorphically, and to think that if they are bearing 
their teeth in what appears to be a grin, that that is a happy 
chimpanzee. She showed me a picture from Life Magazine, and I 
think it was Ham, the chimpanzee returned from space and the 
headline was happy astronaut returns to earth or something, and 
she said that is the most terrified chimpanzee I have ever seen 
in my life. So sometimes we see these television shows and 
circuses and what not what appears to be smiling chimpanzees, 
and what you are seeing is terror, which is certainly an 
emotion that they feel.
    Mr. Prince. Could I just comment on the statement that you 
made of cruel and unusual punishment. I don't agree. We bring 
up our kids to the age of 18 they are thoroughly socialized. 
They have elaborate lives and then under certain circumstances, 
they are pulled into the Army and they go for a year or 2, and 
they come back and they are resocialized in a different way. It 
is our experience that we can take a chimpanzee born on an 
island in a resocialized community, say 4 years old, take him 
back into the lab for a year or 2, and back out to the same 
community and they will reintegrate. I am not saying that one 
should bring the adults back. I think that is impossible. That 
would be wrong, but 5-year-olds I think it is possible.
    And what I am visualizing is the NIH should have breeding, 
or potentially breeding sanctuaries with fertile females maybe 
not with fertile males if they don't want breeding, but then if 
they--we should have a sudden absolute need for chimpanzees, 
those communities could start breeding, the juveniles could be 
put into an experiment. Chimps remarkably almost never get sick 
with anything, so experiments are not that severe for chimps. 
So I have certain reservations about that.
    Mr. Greenwood. Fair enough. One housekeeping duty. Without 
objection, the record will be held open for 7 days for members 
to submit additional questions and statements for the record. 
The letter with 106 signatures on it, is that part of the 
record or do we need a unanimous consent agreement to add that 
to the record? Let me, just to be doubly sure, I ask unanimous 
consent that the letter with the headline, ``we, the 
undersigned members of the scientific and academic community 
endorse H.R. 3514, the Chimpanzee Health Improvement 
Maintenance and Protection Act, which would authorize the 
Federal Chimpanzee Sanctuary System for chimpanzees no longer 
needed in research,'' that that letter be made a part of the 
record.
    [The information referred to follows:]

    WE, the undersigned, members of the scientific and academic 
community, endorse H.R. 3514, the ``Chimpanzee Health Improvement, 
Maintenance and Protection Act'', which would authorize a federal 
chimpanzee sanctuary system for chimpanzees no longer needed in 
research: Jonathan S. Allan, D.V.M., Scientist, Department of Virology 
and Immunology, Southwest Foundation for Biomedical Research (San 
Antonio, TX); American Zoo and Aquarium Association (Silver Spring, 
MD); James Anderson, Ph.D., Senior Lecturer in Psychology, University 
of Stirling (Stirling, Scotlang); Kate Baker, Ph.D., Research 
Associate, Yerkes Regional Pnmate Research Center, Emory University 
(Atlanta, GA); Marc Bekoff, Ph.D., Professor of Environmental, 
Population and Organismic Biology, University of Colorado (Boulder, 
CO); Carol Berman, Ph.D., Professor of Anthropology, University of 
Buffalo (Buffalo, NY); Tammie Bettinger, Ph.D., Curator of Conservation 
and Science, Cleveland Metroparks Zoo (Cleveland, OH); Joseph T. 
Bielitzki, MS, DVK NASA, Chief Veterinary Officer (Mountain View, CA); 
Mollie Bloomsmith, Ph.D., Director of Research and Director of TECHlab 
Zoo Atlanta, Affiliate Scientist Yerkes Regional Primate Research 
Center, Emory University (Atlanta, GA); Carolyn Bocian, Ph.D.; Sarah 
Boysen, Ph.D., Director of Primate Cognition Project and Associate 
Professor of Comparative Psychology, Ohio State University (Columbus, 
OH).
    Hilary O. Box, Ph.D., Senior Lecturer in Psychology, University of 
Reading, Vice President for Captive Care, Primate Society of Great 
Britain and the International Primatological Society (Reading, UK); 
Linda Brent, Ph.D., President Chimp Haven, Inc. (San Antonio, TX); 
Betsy Brotman, Director, Vilab II (Robertsfield, Liberia) and the New 
York Blood Center (New York, NY); Hannah Buchanan-Smith, Ph.D., 
Lecturer in Psychology, University of Stirling, (Stirling, Scotland); 
Thomas Butler, D.V.M.; Richard W. Byrne, Ph.D., Professor of 
Evolutionary Psychology, The University of St Andrews, Vice President 
for Membership, International Primatological Society (St Andrews, 
Scotland); Nancy Caine, Ph.D., Professor of Psychology, California 
State University San Marcos (San Marcos, CA); John Capitanio, Ph.D., 
Associate Professor of Psychology, University of California at Davis, 
and Staff Scientist at the California Regional Primate Research Center; 
Gary Comstock, Ph.D., Associate Professor of Philosophy and Religious 
Studies & Coordinator, Bioethics Program, Iowa State University (Ames, 
Iowa); Robert Cooper, D.V.M.; Colleen Crangle, Ph.D., Computer Science 
(Palo Alto, CA); Steve Davis, D.V.M., Professor of Animal Sciences, 
Oregon State University (Corvallis, OR); David DeGrazia, Ph.D., 
Associate Professor of Philosophy, George Washington University and 
Senior Research Fellow, Kennedy Institute of Ethics, Georgetown 
University (Washington, DC); Frans de Waal, Ph.D., Chandler Professor 
of Primate Behavior, Psychology Department, and Director of LIVING 
LINKS CENTER, Yerkes Regional Primate Research Center, Emory University 
(Atlanta, GA).
    Wendy Dirks, Ph.D., Assistant Professor of Anthropology, New York 
University (New York, NY); Merelyn T. Dolins, Ph.D., Director of 
Physical Therapy, Department of Child Development and Rehabilitation, 
Valley Hospital (Paramus, NJ); Francine L. Dolins, Ph.D., Program 
Scientist for Research, Behavioral Primatologist, Animal Research 
Issues, The Humane Society of the United States (Washington, DC); 
Alessandro Duranti, Editor, Journal of Linguistic Anthropology, 
Department of Anthropology, University of California at Los Angeles 
(Los Angeles, CA); Stephen Easley, Ph.D., Director, Easley and 
Associates, Professional Consultants (Alamorgordo, NM); Sian Evans, 
Ph.D., The DuMond Conservancy (Miami, FL); Brian Fay, Ph.D., Professor 
of Philosophy, Wesleyan University (Middletown, CT); Jo Fritz, 
Director, Primate Foundation of Arizona (Mesa, AZ); Member, National 
Research Council Committee that produced 1997 Report, Chimpanzees in 
Research: Strategies for Their Ethical Care, Management, and Use; Randy 
Fulk, Ph.D., Curator of Research, North Carolina Zoological Park 
(Asheboro, NC); Paul A. Garber, Ph.D., Professor of Anthropology, 
University of Illinois (Urbana, IL); Michele L. Goldsmith, M.S., Ph.D., 
Assistant Professor of Environmental and Population Health, Center for 
Animals and Public Policy, Tufts University School of Veterinary 
Medicine (North Grafton, MA); Jane Goodall, Ph.D., Jane Goodall 
Institute (Silver Spring, MD); Thomas Gordon, Ph.D., Director, Yerkes 
Regional Primate Research Center, Emory University (Atlanta, GA).
    Lisa Gould, Ph.D., Assistant Professor of Anthropology, University 
of Victoria (Victoria, Canada); Victoria Hampshire, D.V.M., Director, 
Advanced Veterinary Applications (Bethesda, MD); Beatrice H. Hahn, 
M.D., Professor of Medicine and Microbiology, University of Alabama 
(Birmingham, AL); Lynette Hart, Ph.D.; Ned Hettinger, Ph.D., Professor 
of Philosophy, College of Charleston (Charleston, SC); Robert A. Hinde, 
Ph.D., Professor Emeritus, Cambridge University, Fellow of the Royal 
Society, Honorary Foreign Associate of the National Academy of Sciences 
(Cambridge, UK); William D. Hopkins, Ph.D., Professor of Psychology, 
Berry College (Rome, GA); Research Associate Yerkes Regional Primate 
Research Center, Emory University (Atlanta, GA); Sue Howell, Ph.D., 
Research Director, Primate Foundation of Arizona (Mesa, AZ); Robert 
Hubrecht, Ph.D., University Federation for Animal Welfare, United 
Kingdom; Ellen Ingmanson, Ph.D. Assistant Professor of Anthropology, 
Dickinson College (Carlisle, PA); Thomas Insel, M.D., Director, The 
Center for Behavioral Neuroscience, Emory University (Atlanta, GA); 
Joseph Jacquot, Ph.D., Professor of Biology, Grand Valley State 
University (Allendale, MI); Alicia Karas, D.V.M., Dipl. ACVA, Assistant 
Professor of Anesthesiology, Tufts University School of Veterinary 
Medicine, Foster Hospital for Small Animals (North Grafton, MA); 
Michael Kastello, D.V.M., Ph.D., Executive Director, Research 
Resources, Merck & Co., Inc. (Rahway, NJ).
    James King, Ph.D., Professor of Psychology, University of Arizona 
(Tucson, AZ); Bette Korber, Ph.D., Research Scientist, Santa Fe 
Institute (Santa Fe, NM); A. Lanny Kraus, D.V.M., Dipi. ACLAM, 
Professor Emeritus, Division of Laboratory Animal Medicine, University 
of Rochester School of Medicine & Dentistry, (Rochester, NY); Susan P. 
Lambeth, Environmental Enrichment Director, M.D. Anderson Cancer Center 
(Bastrop, TX); Louise Lamphere, Ph.D., Professor of Anthropology, 
University New Mexico (NM); Virginia Landau, Ph.D., Staff 
Primatologist, The Jane Goodall Institute (Silver Spring, MD); Director 
ChimpanZoo (Tucson, AZ); Clark Larsen, Ph.D., Amos Hawley Professor of 
Anthropology, University of North Carolina (Chapel Hill, NC); Alecia 
Lilly, Ph.D., Research Fellow, Department of Anthropology, State 
University of New York (Stony Brook, NY); Orla Mahoney, D.V.M., Tufts 
University, School of Veterinary Medicine (North Grafton, MA); Terry 
Maple, Ph.D., President and CEO, Zoo Atlanta (Atlanta; GA); Linda 
Marchant, Ph.D., Professor of Anthropology, Miami University (Oxford, 
OH); Preston A. Marx, Ph.D., Senior Scientist and Professor of Tropical 
Medicine, Tulane University Medical Center (Covington, LA) and Aaron 
Diamond AIDS Research Center (New York, NY); William C. McGrew, Ph.D., 
Professor of Zoology, Miami University (Oxford, OH); Patrick Mehlman, 
Ph.D., Director of Mondika Primate Research Center, Department of 
Anthropology, State University of New York (Stony Brook, NY).
    Robert Mitchell, Ph.D., Associate Professor of Psychology, Eastern 
Kentucky University (Richmond, KY); John Moore, Ph.D., Scientist, Aaron 
Diamond AIDS Research Center, The Rockefeller University (New York, 
NY); Toshisada Nishida, Ph.D., Professor of Anthropology, President of 
the International Primatological Society, Kyoto University (Kyoto, 
Japan); April Nowell, Ph.D., Professor of Anthropology, University of 
Victoria (Victoria, Canada); John Oates, Ph.D., Professor of 
Anthropology, Hunter College, City University of New York (New York, 
NY); Barbara Orlans, Ph.D.; Senior Research Fellow, Kennedy Institute 
of Ethics, Georgetown University (Washington, D.C.); Sue Taylor Parker, 
Ph.D., Professor of Anthropology Sonoma State University (Rohnert Park, 
CA); Gary J. Patronek, VMD, PhD, Director, Tufts Center for Animals and 
Public Policy (North Grafton, MA); Andrew Petto, Ph.D., Editor and 
Assistant Professor, National Center for Science Education, University 
of the Arts (Philadelphia, PA); Evelyn Pluhar, Ph.D., Professor of 
Philosophy, Penn State University (University Park, PA); Trevor Poole, 
Ph.D., University Federation for Animal Welfare (England); Alfred M. 
Prince, M.D., The New York Blood Center (New York, NY); Jill Pruetz, 
Ph.D. Postdoctoral Fellow, Department of Anthropology, Miami University 
(Oxford OH); Anne E. Pusey, Ph.D., Distinguished McKnight Professor of 
Ecology, Evolution & Behavior, University of Minnesota (St Paul, MN); 
Ed Ramsey, D.V.M., University of Tennessee.
    Viktor Reinhardt, Ph.D., Laboratory Animal Specialist, Animal 
Welfare Institute (Washington, DC); Vernon Reynolds, Ph.D., Professor 
of Biological Anthropology, Institute of Biological Anthropology, 
Oxford University (Oxford, UK); Anthony Rose, Ph.D., Director, The 
Biosynergy Institute (Hermosa Beach, CA); William E. Roudebush, Ph.D., 
Associate Professor of Obstetrics & Gynecology and Molecular Cell 
Biology & Pathobiology, Treasurer, International Primatological 
Society, Medical University of South Carolina (Charleston, SC); Andrew 
N. Rowan, D. Phil., Senior Vice President of Research, Education & 
International Affairs, The Humane Society of the United States 
(Washington, DC); Thomas Jefferson Rowell, D.V.M., Director, University 
of Southwestern Louisiana, Lafayette-NIRC (New Iberia, LA); Duane 
Rumbaugh, Ph.D., Director, Language Research Center, Georgia State 
University (Atlanta, GA); Lilly-Marlene Russow, Ph.D., Professor of 
Philosophy, Purdue University (West Lafayette, IN); Member, National 
Research Council Committee that produced 1997 Report, Chimpanzees in 
Research: Strategies for Their Ethical Care, Management, and Use; 
Anthony Rylands, Ph.D., Conservation International and IUCN/SSC, 
Primate Specialist Group; Dale Schwindaman, D.V.M.; Jack F. Sharp, 
President, Biomedical Research Foundation of Northwest Louisiana 
(Shreveport, LA); James Serpell, Ph.D., Associate Professor of Humane 
Ethics & Animal Welfare, and Director, Center for the Interaction of 
Animals & Society, Department of Clinical Studies, School of Veterinary 
Medicine, University of Pennsylvania (Philadelphia, PA).
    Yukimaru Sugiyama, Ph.D., Professor Emeritus of Kyoto University 
and Dean of Faculty of Humanities of Tokai-gakuen University, President 
of Primate Society of Japan; Ema Toback, Ph.D., Assistant Professor of 
Psychology, Santa Monica College (Santa Monica, CA) and University of 
Stirling (Stirling, Scotland); Joel Trupin, Ph.D. Professor of 
Biochemistry, Meharry Medical School (Nashville, TN); Caroline Tutin, 
Ph.D., Senior Research Fellow, Centre International de Recherches 
Medicales, (Franceville, Gabon); and Department of Biological and 
Molecular Sciences, University of Stirling (Stirling, Scotland); 
Augusto Vitale, Ph.D., Research Fellow in Animal Behaviour, Section of 
Comparative Psychology, Laboratorio de Fisiopatologia di Organo e di 
Sistema, Instituto Superiore di Sanita' (Rome, Italy); Janette Wallis, 
Ph.D., Associate Professor of Research, Department of Psychiatry & 
Behavioral Sciences, University of Oklahoma Health Sciences Center 
(OK); Lyna Watson, Ph.D. Affiliated Scientist, Zoo New England (Boston, 
MA); Francoise Wemelsfelder, Ph.D., Research Fellow in Animal Welfare, 
Animal Biology Division, Scottish Agricultural College (Edinburgh, 
Scotland); Brent C. White, Ph.D., Matton Professor of Psychology, 
Centre College, Danville, Kentucky; Roger D. White, M.D., 
Anesthesiology (Rochester, MN); Thomas Wolfle, D.V.M., Retired 
Director, Institute of Laboratory Animal Research, National Research 
Council, Program Director, National Research Council Committee that 
produced 1997 Report, Chimpanzees in Research: Strategies for Their 
Ethical Care, Management, and Use.
    Richard Wrangham, Ph.D., Professor of Anthropology, Department of 
Anthropology, Harvard University (Cambridge, MA); Stephen L. 
Zawistowski, Ph.D., Certified Applied Animal Behaviorist, Senior Vice 
President and Science Advisor, The American Society for the Prevention 
of Cruelty to Animals; Co-Editor, Journal of Applied Animal Welfare 
Science (New York, NY).

    Mr. Green. One last question, Mr. Chairman.
    Mr. Greenwood. The Chair recognizes the gentleman from 
Texas.
    Mr. Green. One last question. Because of the experience we 
have had with the Coulston Foundation, the NIH is not in the 
business of creating sanctuaries and I can't think of an 
example where they would do it, but if they went out for an 
RFP, would groups like yours, the Humane Society, be willing to 
create that and work with them? Because again, I don't know if 
I feel comfortable with NIH doing it themselves, but they would 
contract with someone, so we don't have a repeat of what has 
happened with Coulston where we find out that there is 
obviously, it is not a sanctuary, it is not something that we 
would feel comfortable with.
    Ms. Nelson. I think that would be difficult to work with 
NIH on that level.
    Mr. Prince. I think that NIH did embark in a breeding 
program in Texas, which was part of the reason we have too many 
chimps now, but that was a very well-run breeding program. It 
was not quite what we would call a sanctuary. There are various 
spacious group housing. I don't see any reason why NIH 
shouldn't, if it is concerned with having available chimp 
resources, why they shouldn't have their own semisanctuary, not 
quite sanctuary, but along the same lines, and they can 
certainly give contracts to appropriate people to run that in 
an appropriate way, I would think. They are not bad people.
    Mr. Green. I know they are not bad people. I just was 
wondering if they had that experience in dealing with actually 
retirement of a chimpanzee, instead of bringing them back, 
actually retirement and running an expansive sanctuary. I don't 
know if they have that experience.
    Mr. Prince. None of us have all that much experience. 
Sanctuary is a new thing and we are all learning and we are all 
going to learn together by communicating. NIH people can learn 
with us.
    Mr. Greenwood. If I may, I assume, Ms. Nelson, you are not 
suggesting that the animal welfare organizations would not want 
to participate on the advice--as advisory boards?
    Ms. Nelson. No, I am not suggesting that.
    Mr. Green. They wouldn't want to actually be the ones that 
would contract and provide for the sanctuaries? Again, I would 
feel more comfortable with someone who has the interest you 
have than someone who may be in a nonprofit like Coulston, but 
particularly for profit, may have some concerns about it, 
because once the legislation goes from here, we lose control 
over it, except for our hearing process and an annual 
appropriations.
    Ms. Nelson. I have been given a note that says funds.
    Mr. Greenwood. It is something we never do up on this side.
    Mr. Green. To continue, I understand the funding base. That 
is the problem, but if this bill did pass and we created that 
funding base where NIH would have that ability to go out to the 
private sector or sector that obviously has an interest to 
manage a competent sanctuary.
    Ms. Nelson. Maybe I am misunderstanding. So the funds would 
come from the animal protection?
    Mr. Green. No, would come from NIH. Again, there may be 
some--just like we do with lots of things, you know, there are 
things you can do with funding from the private sector but 
there would be basic funds through NIH for appropriations for 
it.
    Mr. Greenwood. Okay. I thank both of the witnesses for your 
attendance. I thank the members who have attended today. This 
hearing is adjourned.
    Ms. Nelson. Thank you.
    [Whereupon, at 2:26 p.m., the subcommittee was adjourned.]

</pre></body></html>
